<html>
<title> - STATE OF THE NATION'S ENERGY INFRASTRUCTURE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


              STATE OF THE NATION'S ENERGY INFRASTRUCTURE

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 27, 2018

                               __________

                           Serial No. 115-102
                           
                           
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                          


      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov
                        
                        
                                __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-215                       WASHINGTON : 2019                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f6918699b6958385829e939a86d895999bd8">[email&#160;protected]</a> 
                        
                        
                        
                        
                    COMMITTEE ON ENERGY AND COMMERCE

                          GREG WALDEN, Oregon
                                 Chairman
JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Vice Chairman                        Ranking Member
FRED UPTON, Michigan                 BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
MICHAEL C. BURGESS, Texas            ELIOT L. ENGEL, New York
MARSHA BLACKBURN, Tennessee          GENE GREEN, Texas
STEVE SCALISE, Louisiana             DIANA DeGETTE, Colorado
ROBERT E. LATTA, Ohio                MICHAEL F. DOYLE, Pennsylvania
CATHY McMORRIS RODGERS, Washington   JANICE D. SCHAKOWSKY, Illinois
GREGG HARPER, Mississippi            G.K. BUTTERFIELD, North Carolina
LEONARD LANCE, New Jersey            DORIS O. MATSUI, California
BRETT GUTHRIE, Kentucky              KATHY CASTOR, Florida
PETE OLSON, Texas                    JOHN P. SARBANES, Maryland
DAVID B. McKINLEY, West Virginia     JERRY McNERNEY, California
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
H. MORGAN GRIFFITH, Virginia         BEN RAY LUJAN, New Mexico
GUS M. BILIRAKIS, Florida            PAUL TONKO, New York
BILL JOHNSON, Ohio                   YVETTE D. CLARKE, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
SUSAN W. BROOKS, Indiana                 Massachusetts
MARKWAYNE MULLIN, Oklahoma           TONY CARDENAS, California
RICHARD HUDSON, North Carolina       RAUL RUIZ, California
CHRIS COLLINS, New York              SCOTT H. PETERS, California
KEVIN CRAMER, North Dakota           DEBBIE DINGELL, Michigan
TIM WALBERG, Michigan
MIMI WALTERS, California
RYAN A. COSTELLO, Pennsylvania
EARL L. ``BUDDY'' CARTER, Georgia
JEFF DUNCAN, South Carolina
                         Subcommittee on Energy

                          FRED UPTON, Michigan
                                 Chairman
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
  Vice Chairman                        Ranking Member
JOE BARTON, Texas                    JERRY McNERNEY, California
JOHN SHIMKUS, Illinois               SCOTT H. PETERS, California
ROBERT E. LATTA, Ohio                GENE GREEN, Texas
GREGG HARPER, Mississippi            MICHAEL F. DOYLE, Pennsylvania
DAVID B. McKINLEY, West Virginia     KATHY CASTOR, Florida
ADAM KINZINGER, Illinois             JOHN P. SARBANES, Maryland
H. MORGAN GRIFFITH, Virginia         PETER WELCH, Vermont
BILL JOHNSON, Ohio                   PAUL TONKO, New York
BILLY LONG, Missouri                 DAVID LOEBSACK, Iowa
LARRY BUCSHON, Indiana               KURT SCHRADER, Oregon
BILL FLORES, Texas                   JOSEPH P. KENNEDY, III, 
MARKWAYNE MULLIN, Oklahoma               Massachusetts
RICHARD HUDSON, North Carolina       G.K. BUTTERFIELD, North Carolina
KEVIN CRAMER, North Dakota           FRANK PALLONE, Jr., New Jersey (ex 
TIM WALBERG, Michigan                    officio)
JEFF DUNCAN, South Carolina
GREG WALDEN, Oregon (ex officio)
  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, opening statement....................................     1
    Prepared statement...........................................     3
Hon. Bobby L. Rush, a Representative in Congress from the State 
  of Illinois, opening statement.................................     4
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     5
    Prepared statement...........................................     7
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     7

                               Witnesses

Gary McCarthy, Mayor, City of Schenectady........................    10
    Prepared statement...........................................    12
John Devine, Senior Vice President, HDR, Inc.....................    16
    Prepared statement...........................................    18
    Answers to submitted questions...............................   146
Brian Slocum, Vice President, Operations, ITC Holdings 
  Corporation....................................................    33
    Prepared statement...........................................    35
    Answers to submitted questions...............................   150
Jim Ross, Director, International Brotherhood of Electrical 
  Workers Construction and Maintenance Department................    43
    Prepared statement...........................................    46
    Answers to submitted questions \1\...........................   156
Jennifer Chen, Attorney, Sustainable FERC Project Climate & Clean 
  Energy, Natural Resources Defense Council......................    49
    Prepared statement...........................................    51
    Answers to submitted questions...............................   158
Brenda Hellyer, Chancellor, San Jacinto College..................    62
    Prepared statement...........................................    64
    Answers to submitted questions...............................   168

                           Submitted Material

Statement of the Utilities Technology Council, submitted by Mr. 
  Harper.........................................................   115
Statement of the American Public Gas Association, submitted by 
  Mr. Harper.....................................................   118
Article entitled, ``Debunking the False Claims of Environmental 
  Review Opponents,'' the Center for American Progress, May 3, 
  2017, submitted by Mr. Rush....................................   120
Article entitled, ``Trump's Infrastructure Scam Will Gut 
  Environmental Protections To Benefit Corporate Polluters,'' the 
  Center for American Progress, January 28, 2018, submitted by 
  Mr. Rush.......................................................   131
Statement of BlueGreen Alliance, submitted by Mr. Rush...........   134
Article entitled, ``Congress should support an infrastructure 
  plan that builds infrastructure--not guts health & 
  environmental protections,'' Earthjustice, February 27, 2018, 
  submitted by Mr. Rush..........................................   139
Article entitled, ``Trump's Infrastructure Plan Puts Burden on 
  State and Private Money,'' Earthjustice, February 12, 2018, 
  submitted by Mr. Rush..........................................   142

                                  ----------
                                  
                                  
\1\ The committee did not receive a response to Mr. Ross's 
  submitted questions for the record by the time of printing.

 
              STATE OF THE NATION'S ENERGY INFRASTRUCTURE

                              ----------                              


                       TUESDAY, FEBRUARY 27, 2018

                  House of Representatives,
                            Subcommittee on Energy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2322 Rayburn House Office Building, Hon. Fred Upton 
(chairman of the subcommittee) presiding.
    Members present: Representatives Upton, Olson, Barton, 
Shimkus, Latta, Harper, McKinley, Kinzinger, Griffith, Johnson, 
Bucshon, Flores, Mullin, Hudson, Walberg, Duncan, Walden (ex 
officio), Rush, McNerney, Peters, Green, Castor, Sarbanes, 
Tonko, Loebsack, Schrader, Kennedy, and Pallone (ex officio).
    Staff present: Mike Bloomquist, Staff Director; Daniel 
Butler, Staff Assistant; Kelly Collins, Legislative Clerk, 
Energy/Environment; Jordan Davis, Director of Policy and 
External Affairs; Wyatt Ellertson, Professional Staff, Energy/
Environment; Margaret Tucker Fogarty, Staff Assistant; Adam 
Fromm, Director of Outreach and Coalitions; Jordan Haverly, 
Policy Coordinator, Environment; Ben Lieberman, Senior Counsel, 
Energy; Milly Lothian, Press Assistant & Digital Coordinator; 
Mary Martin, Chief Counsel, Energy/Environment; Brandon Mooney, 
Deputy Chief Counsel, Energy; Mark Ratner, Policy Coordinator; 
Annelise Rickert, Counsel, Energy; Dan Schneider, Press 
Secretary; Austin Stonebreaker, Press Assistant; Madeline Vey, 
Policy Coordinator, DCCP; Hamlin Wade, Special Advisor, 
External Affairs; Priscilla Barbour, Minority Energy Fellow; 
Evan Gilbert, Minority Press Assistant; Tiffany Guarascio, 
Minority Deputy Staff Director and Chief Health Advisor; 
Caitlin Haberman, Minority Professional Staff Member; Rick 
Kessler, Minority Senior Advisor and Staff Director, Energy and 
Environment; John Marshall, Minority Policy Coordinator; 
Alexander Ratner, Minority Policy Analyst; and Andrew Souvall, 
Minority Director of Communications, Outreach and Member 
Services.

   OPENING STATEMENT OF HON. FRED UPTON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Upton. Today's hearing, the ``State of the Nation's 
Energy Infrastructure'' will provide members with the 
opportunity to explore the challenges and the opportunities 
related to the maintenance, modernization, and development of 
energy infrastructure. Two weeks ago, the White House unveiled 
its framework for rebuilding infrastructure across the country. 
Citing the need to maintain our country's global 
competitiveness and improve our citizens' quality of life, the 
President's plan seeks to stimulate at least $1.5 trillion in 
new investment over the next decade.
    And while the President's plan touches all sectors, from 
roads and bridges to airports and hospitals and dams, this 
hearing will focus on the state of the Nation's energy 
infrastructure and how we can make meaningful improvements. 
Joining us today is a panel of witnesses who can speak to the 
needs and challenges of a changing energy landscape.
    Since the start of the 115th Congress, this committee has 
held dozens of hearings related to infrastructure and the House 
has already passed legislation on interstate pipeline siting, 
hydropower licensing, and the development of cross-border 
energy infrastructure. That being said, this committee's 
infrastructure efforts are ongoing as there is no question that 
more needs to get done and more projects need to get built, for 
to deliver our nation's abundant energy resources to consumers 
in a reliable, efficient, and cost-effective manner, new 
electric transmission lines and natural gas pipelines have got 
to be constructed.
    And as we have heard during our series of Powering America 
hearings, the Nation's electrical grid faces enormous 
challenges as needed infrastructure is not getting built fast 
enough in some areas of the country. Additionally, we have got 
to face the fact that much of our existing infrastructure is in 
fact aging. The average age of a coal-fired power plant in the 
U.S. is 40 years old and the country's fleet of nuclear 
reactors isn't much younger. Many of these power plants are now 
facing retirement due to their inability to compete 
economically in a market-based environment. Notably, the Oyster 
Creek Nuclear Station in New Jersey, which is the oldest 
reactor in the country, recently announced that it will retire 
later this year after nearly 50 years of service.
    So we can't afford to have the energy infrastructure that 
does not meet America's needs or reflect the evolution of our 
energy markets. Instead, we have got to modernize our outdated 
system by encouraging innovative developments and state-of-the-
art technology such as battery storage and advanced 
transmission devices. I should recognize that much is already 
being done on this front with private capital largely funding 
these improvements. In fact, electric utilities and independent 
transmission developers spent an estimated $23 billion in 2017 
on new transmission infrastructure alone; while the natural gas 
utilities invested a record $25 billion last year across its 
industry.
    Though these private sector investments are critical in a 
highly capital-intensive industry, we should be mindful that 
none of it will get built if we don't have a trained workforce 
that is capable of innovating, designing, and constructing this 
new infrastructure. Not only do we need skilled linesmen and 
women and pipefitters but we also need the engineers to power 
systems in nuclear technologies in many other trades. The 
challenge associated with developing a skilled workforce may be 
greater than the challenge of siting and constructing 
infrastructure projects. So that's an important part of this 
conversation.
    I am glad we have some of the folks who can speak to us on 
that issue, and with that, I want to welcome our panel for sure 
and yield the balance of my time to Mr. Olson.
    [The prepared statement of Mr. Upton follows:]

                 Prepared statement of Hon. Fred Upton

    Today's hearing, the ``State of the Nation's Energy 
Infrastructure'' will provide members with the opportunity to 
explore the challenges and opportunities related to the 
maintenance, modernization, and development of energy 
infrastructure. Two weeks ago, the White House unveiled its 
framework for rebuilding infrastructure in America. Citing the 
need to maintain our country's global competitiveness and 
improve our citizens' quality of life, the President's plan 
seeks to stimulate at least $1.5 trillion in new investment 
over the next 10 years.
    While the President's plan touches all sectors, from roads 
and bridges to airports and hospitals, this hearing will focus 
on the state of the Nation's energy infrastructure and how we 
can make meaningful improvements. Joining us today is a panel 
of witnesses who can speak to the needs and challenges of a 
changing energy landscape.
    Since the start of the 115th Congress, this committee has 
held dozens of hearings relating to infrastructure, and the 
House has already passed legislation on interstate pipeline 
siting, hydropower licensing, and the development of cross-
border energy infrastructure. That being said, this committee's 
infrastructure efforts are ongoing as there is no question that 
more needs to get done and more projects need to be built. If 
we are to deliver our nation's abundant energy resources to 
consumers in a reliable, efficient, and cost-effective manner, 
new electric transmission lines and natural gas pipelines must 
be constructed.
    As we've heard during our series of Powering America 
hearings, the Nation's electrical grid faces enormous 
challenges as needed infrastructure is not getting built fast 
enough in some areas. Additionally, we must face the fact that 
much of our existing infrastructure is aging--the average age 
of a coal-fired power plant in the U.S. is 40 years old and the 
country's fleet of nuclear reactors isn't much younger. Many of 
these power plants are now facing retirement due to their 
inability to compete economically in a market-based 
environment. Notably, the uclear station in New Jersey, which 
is the oldest reactor in the country, recently announced that 
it will retire later this year after nearly 50 years of 
service.
    We cannot afford to have energy infrastructure that does 
not meet America's needs or reflect the evolution of our energy 
markets. Instead, we must modernize outdated systems by 
encouraging innovative developments in state-of-the-art 
technologies such as battery storage and advanced transmission 
devices. I should recognize that much is already being done on 
this front with private capital largely funding these 
improvements. In fact, electric utilities and independent 
transmission developers spent an estimated $23 billion in 2017 
on new transmission infrastructure alone; while the natural gas 
utilities invested a record $25 billion last year across its 
industry.
    While these private-sector investments are critical in a 
highly capital-intensive industry, we should be mindful that 
none of it will get built if we don't have a trained workforce 
that is capable of innovating, designing, and constructing this 
new infrastructure. Not only do we need skilled linemen and 
pipefitters, but we also need engineers in power systems and 
nuclear technologies, and in many other trades. The challenge 
associated with developing a skilled workforce may be greater 
than the challenge of siting and constructing infrastructure 
projects. This is an important point in this conversation, so 
I'm glad that we have some folks with us who can speak to this 
issue.
    With that, I'd like to thank this entire panel of 
distinguished witnesses for appearing today and I look forward 
to your testimony.

    Mr. Olson. I thank the chair, and welcome to our six 
witnesses.
    Having a Texan on the panel gives me a chance to do what 
Texans love to do and that's to brag about my home state. The 
greater Houston region has some of the best technical colleges 
in the country and Texas-22, who I worked for, has the best of 
the best. Schools like Houston Community College, Texas State 
Technical College, Alvin Community College, Wharton County 
Junior College, who actually built a new campus in Matagorda 
County to meet the needs of retiring workers at the South Texas 
Power Plant. But the top gun at home is San Jacinto College and 
that's because of their chancellor, Brenda Hellyer. We are 
honored to have you here, Chancellor Hellyer.
    When America's largest petrochemical complex has a need, 
they turn to Dr. Hellyer and San Jac. One example is their new 
maritime technological training center. It simulates all 51 
miles of the Port of Houston Ship Channel and it's so real. I 
was down there a year ago right by the Harbor Bridge. It snowed 
heavy snow--blizzard. The waves started rocking my little 
tugboat. I got seasick in a simulator. It's real, and that's 
San Jacinto Junior--San Jacinto College. Welcome, Dr. Hellyer. 
Glad to have you.
    I yield back.
    Mr. Upton. Gentleman's time has expired.
    The chair recognizes the ranking member of the 
subcommittee, the gentleman from Illinois, Mr. Rush.

 OPENING STATEMENT OF HON. BOBBY L. RUSH, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Rush. Mr. Chairman, I am at a loss for words on that. 
But I want to thank you, Mr. Chairman, for holding this 
important hearing today on the energy infrastructure.
    As you know, investing in the Nation's aging infrastructure 
is a top priority for members on both sides of the aisle and it 
is my hope that we can address this issue in a bipartisan 
manner.
    Unfortunately, Mr. Chairman, the proposal put forth by the 
Trump administration leaves a lot to be desired and, frankly, 
is a poor starting point, from my perspective. The President's 
infrastructure plan fails to provide adequate Federal 
investment in the Nation's antiquated energy infrastructure. 
But, rather, it attempts to short circuit environmental 
regulations and it places the vast majority of the funding 
burden on cash-strapped states and local municipalities. In 
fact, under the administration's proposal, states will be 
prohibited from receiving more than 10 percent of the total 
grant fund and 80 percent of new investment must come from non-
federal sources.
    Mr. Chairman, this proposal resembles less of a national 
infrastructure plan and instead will simply pick winners and 
losers where only a limited number of states, localities, and 
affluent communities will actually benefit from the president's 
plan.
    Instead, Mr. Chairman, I want to urge this subcommittee to 
look at a more serious alternative outlined in H.R. 2479, the 
Leading Infrastructure for Tomorrow's America, or LIFT America, 
Act introduced by Ranking Member Pallone, myself, and the rest 
of the minority members of the Energy and Commerce Committee 
back in May 2017. This bill offers thoughtful recommendations 
that will surely benefit all Americans including providing 
provisions that would invest in cleaner water infrastructure, 
clean energy infrastructure, more resilient broadband, 
brownfields redevelopment and, last but not least, health care 
infrastructure.
    Additionally, Mr. Chairman, I have also sponsored a bill 
that would strengthen the Nation's workforce by investing in 
initiatives to train minority women and unemployed coal workers 
to compete for good-paying energy and manufacturing jobs and 
careers. Mr. Chairman, it is not enough to simply curtail an 
environmental protection and pass the funding for immersion 
onto the same.
    I look forward to hearing from our esteemed witnesses and I 
look forward to working with the majority.
    Mr. Chairman, with that, I yield my time to my good friend, 
also from the great State of Texas, Mr. Green.
    Mr. Green. Mr. Chairman, members, I thank you Ranking 
Member for yielding to me today.
    First of all, I want to say that this is the first 
committee hearing we have had that Pete Olson hasn't talked 
about the Astros. So Pete, I want to tell you how proud we are 
on this side about the Castros.
    Mr. Olson. It's coming. It's coming.
    Mr. Green. But, more importantly, I want to welcome our 
panel and particularly our chancellor from San Jac North. I've 
worked for many years with San Jacinto College in training.
    In East Harris County, we could have every union 
electrician in the country come to Houston and we'd still need 
more electricians because the expansion of our industries in 
East Harris County because of the Eagle Ford and now with 
Permian Basin. So we have refineries, chemical plants, and 
things like that.
    But I am a native Houstonian and you all have heard a lot 
of times I've never not lived on a pipeline easement in 
Houston, Texas. No matter where I've lived, I have a pipeline 
easement there and I get all these nice letters during the year 
making sure I know what happens if there is an accident.
    But our infrastructure is so important. It's not just 
highways and rails and airports but it's also pipelines, and 
because of the success we are having in some of the states, I 
think we need to have that infrastructure on energy pipelines, 
too.
    And with that, I'll thank my colleague. I know I've used up 
the time he yielded to me.
    Thank you.
    Mr. Upton. Gentleman's time has expired.
    The chair will recognize the chairman of the full 
committee, the gentleman from the good state of Oregon, Mr. 
Walden.

  OPENING STATEMENT OF HON. GREG WALDEN, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF OREGON

    Mr. Walden. I thank the gentleman, and we are having a lot 
of talk about aging infrastructure and I don't think that's 
fair to Adam Kinzinger just because it's his 40th birthday 
today, speaking of aging infrastructure.
    [Laughter.]
    Happy birthday. Today's hearing explores the state of the 
nation's energy infrastructure. It's another important step in 
our commitment to putting the needs of consumers first. Energy, 
truly the driving force in our economy and our country, and our 
hearing today is focused on ways to expand and improve and 
modernize our infrastructure so we can deliver energy to 
consumers more safely, reliably, and cost-effectively.
    So this morning we have an excellent panel of witnesses who 
are going to share with us some challenges and opportunities 
that the country faces and you all face to modernize our 
infrastructure in the energy realm. We will gather your 
perspectives and we will learn more about what we need to do in 
public policy. Just for the record, our committee has been very 
active in this area. A lot of work has gone into our 
legislative initiatives on the nation's infrastructure.
    We know there is a lot more that needs to be done. This 
hearing marks our forty-seventh hearing on infrastructure just 
in this session of Congress alone. We have 24 energy bills and 
environmental bills that have passed the House already and have 
gone over to the Senate. They address pipeline infrastructure, 
hydropower relicensing, brownfields, air quality standards, 
energy efficiency, drinking water improvement, and nuclear 
waste storage. All this work is incredibly important for my 
district. These bills will have a direct positive impact for 
our local economies and our communities both in Oregon and 
across the country, and now we look forward to continuing our 
work with the United States Senate and the White House to get 
these measures signed into law.
    I applaud President Trump for not only recognizing the need 
to improve all facets of our nation's infrastructure but also 
for demonstrating the leadership needed to push forward this 
major initiative for our country.
    While there are many difficult details to work out, I 
believe there is support for a broad infrastructure bill. Just 
the other week I participated in a bipartisan, bicameral 
infrastructure meeting hosted by the President at the White 
House where we talked about our shared priorities for 
rebuilding our nation's infrastructure from roads and bridges 
to pipelines and for broadband in our un-served and underserved 
areas of the country.
    While much of the conversation around infrastructure has 
focused on ways to increase federal spending, we should be 
mindful that most of the nation's energy infrastructure is 
privately owned and operated.
    We all know that financing is a crucial aspect of any 
infrastructure plan so we are thinking outside the box to see 
where we can make the most progress with the limited federal 
money that is available. We are focused on fixing the 
regulatory environment, encouraging public-private 
partnerships, and strengthening our workforce.
    Our nation's energy infrastructure--the traditional base 
load power plants, windmills, solar panels, hydroelectric dams, 
pipelines, power lines, fossil fuel production facilities, and 
import-export terminals, they make up the real backbone of 
America's economy. With innovation and technological 
advancements driving change at a rapid pace it's our 
responsibility as members of this committee to understand the 
challenges and the opportunities associated with keeping these 
energy systems operating safely and reliably.
    So we have got a lot of work to do but we are moving in the 
right direction, and with that, I want to thank our witnesses 
for appearing before us today.
    I look forward to your testimony and the work going forward 
in this matter under Chairman Upton's leadership.
    So with that, Mr. Chairman, unless anyone else wants the 
remainder of my time, I'd be happy to yield back and hear from 
our witnesses.
    [The prepared statement of Mr. Walden follows:]

                 Prepared statement of Hon. Greg Walden

    Today's hearing exploring the ``State of the Nation's 
Energy Infrastructure'' is another important step in our 
commitment to put the needs of consumers first. Energy is truly 
the driving force powering our economy. Our hearing today is 
focused on ways to expand, improve, and modernize our 
infrastructure, so that we can deliver energy to consumers more 
safely, reliably, and cost-effectively.
    This morning, we have an excellent panel of witnesses who 
will testify on the challenges and opportunities to modernizing 
our nation's energy infrastructure. We'll gather perspectives 
from the people on the front lines--those who train our workers 
and design, build, and operate our energy infrastructure. My 
hope is that their stories can help us identify policy gaps and 
propose solutions to attract investments to update and build 
new energy infrastructure.
    This committee has been hard at work on ways to modernize 
our nation's infrastructure, but there's more work to be done. 
This hearing marks our forty-seventh hearing on infrastructure 
this Congress alone. Twenty-four energy and environment bills 
have passed the House already, addressing pipeline 
infrastructure, hydropower licensing, Brownfields, air quality 
standards, energy efficiency, drinking water, and nuclear waste 
storage. All of this work is incredibly important for my 
district in Oregon. These bills will have a direct, positive 
impact for local economies and communities in my state and 
across the country. Now that these bills are with the Senate, 
we're working with our colleagues and the administration to get 
them moving and signed into law.
    I applaud President Trump for not only recognizing the need 
to improve all facets of our nation's infrastructure, but for 
also demonstrating the leadership needed to push forward this 
major initiative.
    While there are many difficult details to work out, I 
believe there is support for a broad infrastructure bill. Just 
the other week, I participated in a bipartisan, bicameral 
infrastructure meeting hosted by President Trump at the White 
House to discuss our shared priorities for rebuilding our 
nation's infrastructure.
    While much of the conversation around infrastructure has 
focused on ways to increase federal spending, we should be 
mindful that most of the nation's energy infrastructure is 
privately owned and operated.
    We all know that financing is a crucial aspect of any 
infrastructure plan, so we're thinking outside the box to see 
where we can make the most progress with limited federal funds. 
We're focused on fixing the regulatory environment, encouraging 
public-private partnerships, and strengthening our workforce.
    Our nation's energy infrastructure--the traditional 
baseload power plants, windmills, solar panels, hydroelectric 
dams, pipelines, power lines, fossil fuel production 
facilities, and import/export terminals--make up the backbone 
of our economy. With innovation and technological advancements 
driving change at a rapid pace, it's our responsibility as 
members of this committee to understand the challenges and 
opportunities associated with keeping these energy systems 
operating safely and efficiently.
    We've got a lot of work to do, but we're moving in the 
right direction. With that, I want to thank the witnesses for 
appearing before us today and I look forward to their 
testimony.

    Mr. Upton. Gentleman yields back.
    The chair recognizes the ranking member of the full 
committee, the gentleman from New Jersey, Mr. Pallone, for an 
opening statement.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Chairman Upton.
    Revitalizing and modernizing our nation's crumbling 
infrastructure should be an area where Democrats and 
Republicans can find common ground. Unfortunately, the plan 
President Trump unveiled 2 weeks ago barely mentions energy 
and, as a whole, represents another cynical bait and switch. 
After promising for more than a year to invest over a trillion 
dollars in America's infrastructure, the President's plan does 
not offer any new funding for infrastructure.
    This anemic proposal calls for $250 billion in federal 
spending but even that is offset by $200 billion in cuts to 
vital existing programs. Worse yet, the 80 percent match 
requirement will do little to help towns, cities, and counties 
all across this country that simply cannot afford this kind of 
spending. In fact, the Wharton School at the University of 
Pennsylvania where President Trump attended college provides a 
withering criticism of his so-called infrastructure plan, 
stating that it really won't leverage funds and that ``There 
will be little to no impact on the economy.''
    To call the Trump plan worthless isn't partisan. It's the 
reality. In stark contrast, Democrats actually have a real 
plan, a better deal for investing and rebuilding America. This 
plan includes important parts of the committee Democrats' bill, 
the LIFT America Act. This legislation would create jobs and 
boost the economy by putting real money towards infrastructure 
like replacing drinking water pipes, cleaning up brown field 
sites, supporting energy efficiency and clean energy, extending 
broadband service and revitalizing our hospitals and health 
care infrastructure.
    Democrats are committed to delivering a better deal for 
Americans, providing cheap clean energy for consumers and 
modernizing our aging energy infrastructure so that it's 
secure, efficient, and resilient. We will make key investments 
that will transport our energy infrastructure into the 21st 
century energy economy while creating jobs of the future that 
lessen our carbon footprint. We do this by expanding renewable 
energy and by investing in energy efficiency programs that will 
lower Americans' monthly bills and these programs are good for 
the environment and good for consumers.
    The Democrats' LIFT America Act is a bold proposal that 
will revitalize our infrastructure, grow our economy, and 
create new jobs, and to ensure good family-sustaining wages for 
workers we are committed to maintaining Davis-Bacon community-
based wage standards and other worker protections. We will 
invest in workers through robust training, provide job 
opportunities for veterans, and level the playing field for 
small businesses including women and minority-owned businesses. 
And what we won't do is buy into the false choice between a 
strong economy and a healthy environment. President and 
Republicans keep pushing this outdated false narrative, but the 
reality is that a clean and safe environment supports a strong 
economy.
    Environmental safeguards are not the obstacle to 
infrastructure improvements. The real obstacle is the lack of 
funds. President Trump spared no expense and required no 
offsets for tax breaks to fuel profits on Wall Street, but when 
it comes to helping Main Street all he's offering is Monopoly 
money. And we can and must do better. I hope my colleagues on 
the other side of the aisle agree and will work with us to 
invest in America and truly make our infrastructure great 
again.
    And I yield the balance of my time to the gentleman from 
New York, Mr. Tonko.
    Mr. Tonko. And I thank the ranking member of the standing 
committee for yielding.
    It's my pleasure to thank Chair Upton and Ranker Rush for 
hosting this hearing, which is going to enable us to better 
understand the full range of possibilities of energy 
infrastructure that should be considered.
    So I welcome the panel here this morning and in particular 
want to offer my welcome to one of the mayors of the 
communities that I represent in the 20th Congressional District 
of New York, the Honorable Gary McCarthy, mayor of the great 
city of Schenectady, New York, in the 20th District. And I 
thank the mayor for being here. He's a great friend, a super 
colleague, and a very thoughtful leader, a progressive leader, 
and one who has brought great vision to leading the city of 
Schenectady, which is dubbed the electric city, as it opened 
its gates to Thomas Alva Edison at one time, and we have great 
heritage as it relates to energy development.
    But I want to bring attention to the city of Schenectady's 
report under the tutelage of Mayor McCarthy, the 2017 Smart 
City Report, which is just filled with all sorts of wonderful 
ideas and has enabled Gary McCarthy to be a national leader in 
Smart City demonstration projects. I encourage members to check 
out this report. It offers many opportunities that, when 
proven, could be replicable around the country and will hold a 
number of type of projects that are possible to improve energy 
efficiency, public safety, and internet access. It's a 
tremendous report. I thank the mayor for his leadership and I 
thank him for being here with the rest of the panel here this 
morning.
    So thank you, Mayor McCarthy, and welcome.
    Mr. Upton. Well, we are grateful for all the witnesses 
today.
    We are joined by Brian Slocum, the VP of operations for ITC 
Holdings, Jim Ross, the Director of International Brotherhood 
of Electrical Workers, Brenda Hellyer, Chancellor of San 
Jacinto College, John Devine, Senior VP for HDR, Inc., Jennifer 
Chen--I think--is that right, Chen--Sustainable FERC Project 
Attorney, Natural Resources Development Council, and the 
Honorable Mr. McCarthy, Mayor of Schenectady, New York.
    We welcome you all. Your statements are made part of the 
record in their entirety. Thank you for submitting them early, 
and each of you will be given 5 minutes to summarize that 
testimony.
    And Mr. Mayor, we will start with you. Welcome.

   STATEMENTS OF THE HONORABLE GARY MCCARTHY, MAYOR, CITY OF 
  SCHENECTADY; JOHN DEVINE, SENIOR VICE PRESIDENT, HDR INC.; 
    BRIAN SLOCUM, VICE PRESIDENT, OPERATIONS, ITC HOLDINGS 
 CORPORATION; JIM ROSS, DIRECTOR, INTERNATIONAL BROTHERHOOD OF 
  ELECTRICAL WORKERS CONSTRUCTION AND MAINTENANCE DEPARTMENT; 
  JENNIFER CHEN, ATTORNEY, SUSTAINABLE FERC PROJECT CLIMATE & 
    CLEAN ENERGY, NATURAL RESOURCES DEFENSE COUNCIL; BRENDA 
            HELLYER, CHANCELLOR, SAN JACINTO COLLEGE

                   STATEMENT OF GARY MCCARTHY

    Mr. McCarthy. Chairman Upton, Ranking Member Rush, 
distinguished members of the committee and, of course, New 
York's 20th District Congressman Tonko, thank you for the 
opportunity to appear before you today.
    While I am the mayor of the city of Schenectady and serve 
in the leadership of the New York Conference of Mayors, I want 
to make available to you the resources and staff of the U.S. 
Conference of Mayors.
    Under the capable leadership of Conference President New 
Orleans' mayor, Mitch Landrieu and Executive Director Tom 
Cochran, the conference team is ready and able to assist you in 
research, identifying problems and opportunities in the 
adoption of a national energy infrastructure policy and the 
appropriate budgetary support to ensure the successful 
implementation of that policy.
    We live in an exciting time, one of rapid change, a time of 
disruptive technologies, a time of great opportunity. The city 
of Schenectady has a long and proud history of innovation in 
the creative use of technologies. Congressman Tonko pointed out 
Thomas Edison founded the General Electric Company in our city 
over 125 years ago. The x-ray was developed in Schenectady. The 
first television broadcast occurred in the city of Schenectady. 
Many of the world-changing products and technologies we use 
today have their roots in Schenectady.
    Today, some of the most valuable real estate in Schenectady 
and communities across the country are our light poles. The 
conversion of conventional street lights to LED fixtures is 
happening everywhere. It makes sense. There is an immediate 
savings of over 50 percent in electrical costs. But what we are 
doing in Schenectady and in some communities across the country 
is looking at the opportunity to add additional features. 
Sensor-based technologies to the light pole when the conversion 
to LED fixtures is happening, environmental sensors measure 
temperature and precipitation, device-based utility-grade 
meters that will allow different owners to place devices in a 
light pole and pay for the electricity that's used just by 
their device, optical sensor providing deterrence and 
documentation for policing, traffic and pedestrian analytics, 
dimming controls for additional electrical savings, acoustical 
sensors, Wi-Fi, and cellular communication protocols are just a 
few of the possible additions to a standard light pole. These 
devices will better enable a more cost-effective delivery of 
municipal services, the valuable exchange of data and 
information, improved educational opportunities within our city 
school district, and help with cost containment in providing 
health care.
    Schenectady is partnering with National Grid, our local 
utility, in implementing a REV demonstration project in our 
city. REV is reforming the energy vision, a program with New 
York Governor Cuomo's comprehensive energy strategy to build a 
clean and more resilient affordable energy system. We are 
working with National Grid, GE, AT&T, Cisco, Presidio, CIMCON 
Lighting, and other local partners to do a citywide deployment 
of Smart City technology as we do the conversion to LED lights. 
We hope the National Grid project in Schenectady will create a 
replicable model for utilities in other communities across the 
state and, hopefully, the country.
    The ongoing efforts of Schenectady to further invest in 
infrastructure by leveraging convergent technologies including 
distributive generation resources, intelligence services, 
buildings in the electrification of transport will not only 
make the city more energy productive, economically and 
environmentally sustainable, but will assist New York State in 
its individually adopted economy wide target of an 80 percent 
reduction in greenhouse gas emissions by 2050, commonly 
referred to as the 80x50 Program.
    The 80x50 challenge is a significant goal and will require 
fundamental changes, which means that the early cost savings 
and sustainable applications of Schenectady and National Grid's 
initiatives could serve as a model for other communities and 
utilities. This type of project has the potential to transform 
communities and has clear implications for the global 
competitiveness of this country. But it's based on a stable and 
an adaptable electrical grid. There are many components of the 
Smart City or Smart Grid projects that are self-financing. 
Conversion to LED light fixtures is a clear example. Some lend 
themselves to partnerships between utilities, communities, and 
companies--public Wi-Fi in commercial areas is an example. 
Others, like the upgrading of utility resiliency to deal with 
physical and cyber-attacks, the possibility of electromagnetic 
pulses, economic warfare, or proof of concept for emerging or 
yet to be developed concepts or technologies will likely 
require 100 percent funding from the federal government.
    Mr. Chairman, again, I thank you for the opportunity to be 
here and look forward to the committee's questions.
    [The prepared statement of Mr. McCarthy follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Upton. Thank you very much.
    Mr. Devine, welcome.

                    STATEMENT OF JOHN DEVINE

    Mr. Devine. Good morning, Chairman Upton, Ranking Member 
Rush, and members of the subcommittee.
    I am John Devine, a past president of the National 
Hydropower Association, and I am here today on behalf of NHA to 
share my thoughts about the value and needs of hydropower's 
part of this nation's infrastructure.
    My engineering career spans 45 years focused on water 
resources and hydropower, working both in the public and the 
private sector. That also makes me part of the aging 
infrastructure, I might say.
    I was also a founding member of a hydropower consulting 
firm that started with two people in Portland, Maine, and grew 
into a practice with over 250 professionals with offices in six 
states. I hope this provides a small example of the jobs that 
hydropower can create.
    I will emphasize three points today. First, investment in 
new and existing hydropower projects produces economic benefits 
and creates jobs. Second, policies that support hydropower 
deserve to be part of any infrastructure package Congress 
develops, and third, in order to preserve investment in 
hydropower, I believe changes in federal policy, particularly 
in the licensing process, will be necessary.
    So to my point one, investment in hydropower infrastructure 
doesn't just create jobs. It creates the kind of jobs that 
require skill and education and are therefore valued, meaning 
in demand and well paid. We are talking about many field 
technicians, electricians, highly-skilled mechanics, biologist, 
hydrologists, computer modelers, suppliers of all kind in 
virtually every field of engineering.
    Hydropower is also often a cornerstone part of multipurpose 
projects that provide water for irrigation and natural resource 
protection, water supply for millions of people, drought 
mitigation, flood control, and other benefits. Which leads me 
to my second point. Ensuring more investment in hydropower 
should be a piece of any national infrastructure plan. 
Hydropower is a key part of the national infrastructure. Just 
consider the role played by hydropower in pulling the Northeast 
and the upper Midwest out of the 2003 blackout that affected 45 
million people in the U.S. Hydropower's black start capability 
did that, and isn't that the very definition of important 
infrastructure?
    Consider our federal hydropower system. The average federal 
hydropower facility is over 50 years old. While this 
demonstrates reliability and durability, it also highlights the 
potential to increase efficiency and add capacity, therefore, 
more renewable energy from the same plant and more jobs. This 
leads me to my third point. I report to you today as a 
practitioner in the field of federal hydropower licensing. Here 
is what I can report to you from the field.
    First, the federal licensing and relicensing process is 
broken but maybe not for the reasons that you're thinking. It's 
not because of Congress passing the EP Act of 2005. Congress 
took a significant step to bring efficiency, transparency, and 
accountability to agency decision making. This committee in 
particular has done yeoman's service in support of hydropower. 
It's not because of FERC. In its promulgation of the integrated 
licensing process, FERC made a bold attempt to bring order, 
efficiency and better fact-based decision making to the 
process.
    In general, in my opinion, FERC is performing its role as a 
neutral arbiter of the facts. So how is it broken? It is broken 
today because many federal and state resource agencies do not 
adhere to the basic ground rules of the federal licensing 
process.
    Here are three examples that I can share with you. First, 
what I am seeing is that all too frequently the scientific 
studies conducted as part of the licensing process are being 
ignored by resource agencies when the study results do not 
comport with the agency's notions of a project's environmental 
impacts. This is despite the fact that these studies are 
performed for the express purpose of informing development of 
license conditions. Such disregard can lead to agency 
conditions which are not considered with the available and 
therefore are likely not to be effective.
    Second, state and federal resource agencies' 
recommendations for license conditions including mandatory 
conditions which FERC cannot balance are often made without due 
consideration of their full impacts and are only focused on 
narrow agency goals.
    Third, in many cases, the federal licensing process can 
drag on for years, even a decade or more after the filing of a 
complete application, while the applicant waits for the various 
federal and state agency decision making processes to be 
completed. Together, these provide a very chilling effect on 
investment.
    To conclude, hydropower offers many benefits to society. IT 
supports the grid and, as I mentioned, literally keeps lights 
on. It integrates other renewable generation. It supports clean 
air for our communities. These values are being eroded and U.S. 
hydropower has much more to offer, but only if it is given the 
policy support to unlock its potential.
    I thank the subcommittee for allowing me to testify and I 
look forward to answering your questions.
    [The prepared statement of Mr. Devine follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Upton. Thank you very much.
    Mr. Slocum, welcome.

                   STATEMENT OF BRIAN SLOCUM

    Mr. Slocum. Thank you, Chairman Upton, Ranking Member Rush, 
and the distinguished members of the subcommittee.
    As you know, my name is Brian Slocum. I am the Vice 
President of Operations for ITC Holdings, Corp., and I 
appreciate the opportunity to speak before you today.
    ITC is the largest independent electricity transmission 
company in the country and we own and operate electric 
transmission assets that has a footprint that expands to eight 
Midwest and Great Plains states. We have no geographic 
constraints and we invest in the grid and we do that to improve 
reliability, to expand access to markets, and lower the cost of 
delivered energy to our customers.
    We also allow for diverse and new generating resources to 
interconnect to our transmission systems. At the conclusion of 
today's hearings, I hope to leave the Committee with two very 
clear takeaways--first, that investment in the transmission 
grid is needed now, and secondly, the private sector utility 
industry, which we are a part of, are ready to make these 
investments if we are provided with the right regulatory and 
planning environment.
    While there have been some efforts made by the Trump 
administration and Congress to reform the existing regulatory 
process for electric transmission, additional reforms in 
federal permitting and environmental review processes are 
needed. We also need to continue to take proactive steps to 
reform procedures for planning the transmission system to 
ensure that we are examining the full value of the transmission 
investments.
    I would like to highlight the growing importance of 
transmission infrastructure to our economy. In the earliest 
incarnations of the grid, the transmission lines were built for 
a single purpose and that was just to move electricity from 
generating plants to homes and businesses. It was usually 
within a single utility footprint.
    Things have certainly evolved as FERC and individual states 
have opened up electricity markets to competition and 
transmission lines became more than just a one-way delivery 
system for individual utilities. Today, the transmission grid 
serves as a non-discriminatory regional platform for connecting 
consumers to energy markets. As customer expectations have 
increased, so too have the drivers for new investment in 
transmission infrastructure.
    Whatever the energy future may bring, let's be clear that 
we need a modern transmission system to provide the optionality 
to facilitate that future. Moving forward, the story is clear 
as well. Our economy is becoming more and more dependent on 
reliable and affordable access to electricity and the 
transmission grid becomes more stressed as that occurs. 
Planning the grid to address these demands requires 
consideration of many complex factors including potential 
threats to the system.
    We now understand that the redundancy that we planned into 
the transmission system--in other words, the different ways and 
pathways that we can connect to consumers--that offers a pretty 
strong protection against adverse events that can impact 
generation resources or the transmission system itself. 
Investing now will ensure the resilience of the grid and the 
resource diversity while keeping electricity prices low for 
consumers and for businesses.
    I would like to emphasize that, theoretically, no federal 
dollars are needed to strengthen the grid, increase resilience, 
and create jobs. The private sector which we are a part of is 
ready to make these investments, provided that regulatory and 
planning environment is conducive to the investment.
    We applaud the efforts by Congress to streamline the 
permitting process for new infrastructure. Even still today, 
permitting for a major transmission line can take nearly a 
decade to secure a range of federal, state, and local permits.
    In order to ensure that the NEPA process can be completed 
in a reasonable amount of time while maintaining the strong 
commitment that we have to environmental stewardship that we 
all share this commitment, then Congress could consider a 
number of options including requiring concurrent NEPA analysis 
and environmental reviews by all the permitting agencies 
involved, requiring those agencies to use the information 
that's already contained in the lead agency's NEPA document as 
the basis for their reviews, and then, finally, setting some 
firm deadlines for the NEPA process.
    To make the necessary investments in transmission 
infrastructure that we are ready to do, we need a supportive 
regulatory environment and to use the latest and most 
comprehensive methodologies to plan and approve new 
transmission lines. Planning the grid proactively requires that 
benefits of a potential investment be viewed more 
comprehensively by integrating a range of project benefits and 
planning drivers into criteria for approving projects.
    Finally, we need also to support the construction of new 
transmission lines that connect RTOs and ISOs in various 
regions which, as of today, are still highly separated.
    More interregional connections will increase system 
flexibility and resilience against potential threats while 
still allowing regional flexibility and approaches to joint 
planning.
    Thank you again for the opportunity to testify before the 
committee and I look forward to answering any questions you 
might have.
    [The prepared statement of Mr. Slocum follows:]
   [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Upton. Thank you very much.
    Mr. Ross.

                     STATEMENT OF JIM ROSS

    Mr. Ross. Thank you.
    Chairman Upton, Ranking Member Rush, and the Members of the 
Committee, on behalf of our president, Lonnie Stephenson, thank 
you for inviting me here today to participate in this important 
discussion.
    Energy generation and power distribution is an $800 billion 
a year business. With 775,000 active members and retirees, the 
International Brotherhood of Electrical Workers--the IBEW--
represents approximately 400,000 workers employed in 
generation, transmission, distribution, construction, and rail 
jobs all in some way related to the electrical grid. The IBEW 
supports a diverse balance and resilient energy portfolio that 
includes renewables like wind, solar, and hydro while 
preserving key base load energy's sources like natural gas, 
coal, nuclear power. These base load power sources are 
extremely important to the United States security and vital to 
future planning. The need to upgrade is getting its rightful 
attention these days.
    But left out of the recent conversation is that the United 
States has not made meaningful upgrades to its energy 
infrastructure since the 1970s. Unfortunately, our current 
electric distribution system, which functions on a regional or 
localized basis, is outdated and inefficient and the permitting 
and approval process for large-scale transmission projects is 
more than burdensome. It's an outright barrier to construction.
    The large-scale solar installation in the desert of 
California, a massive new hydropower generation project in 
eastern Canada, and a wind farm in the plains--these are major 
renewable energy development projects the members of the IBEW 
have been proud to help construct in recent years.
    But these generation projects of the future are only as 
good as the transmission network they will rely on. Their value 
is diminished if there is no infrastructure to take power from 
the source to the demand for electricity.
    New investment in the transmission network is a necessary 
component of these renewable energy projects and the good news 
is that plans exist and, in some cases, are years into the 
necessary permitting and approval stages. In fact, 
approximately $140 billion in private capital is awaiting 
permit approvals for aging transmission system overhauls and 
development of new clean lines to move more renewable sources 
to market.
    One important method of financing infrastructure projects 
is through bonds and regulatory decisions can dramatically 
impact the bond market. Congress can also play a key role in 
project financing by expanding access to private activity 
bonds. Your support for legislation that encourages market 
predictability and stability will foster job creation.
    It is also important to support legislation that would 
streamline permitting and siting processes. There are plenty of 
energy infrastructure projects across the United States that 
have been involved in the permitting process for years.
    An example of a project pending approval is the 192-mile 
Northern Pass project which will build high-voltage 
transmission lines through New Hampshire, carrying clean 
hydropower from Canada to New England. It would create 2,600 
jobs during peak construction and many of these would be 
skilled IBEW construction linemen. Recent storms and frigid 
temperatures have challenged the ability to the region to meet 
demand for heating and electric generation. As a result, 
wholesale gas prices spiked more than 10 times the 2017 average 
price and oil-fueled turbines were employed, triggering a 
release of greenhouse gases and pollutants into the atmosphere.
    Northern Pass will relieve the massive imbalance of supply 
and demand in New England and introduce necessary renewable 
diversity into its energy portfolio. Another 750-mile high-
voltage clean line project will deliver 4,000 megawatts of 
wind-generated power to major load centers in the Midwest and 
the East Coast, enough to power 720,000 homes. Both of these 
projects bring economic and job growth, preserve local 
communities, and grow the tax base. A regulatory resistance 
from state and local jurisdictions has effectively stopped them 
before they could get off the ground. For this reason, we need 
to empower federal authorities to approve large-scale projects 
of national importance that cross state lines and local 
government jurisdictions.
    With all due respect to local authorities, we need a new 
approach that trims unnecessary red tape and streamlines the 
rules created by numerous regulatory authorities. Additionally, 
the Federal Government should take responsibility for right 
sizing by incentivizing development of capacity in excess of 
current market demands.
    Accounting for future demand avoids the possibility of 
under building and encourages future development renewable 
electricity sources because there will be a market case to make 
to investors, providing that they can move their generation to 
major markets.
    Lastly, we are encouraged by recent one-agency one-decision 
proposals which will reduce the time line for federal 
environmental reviews and permitting processes. We do not 
support efforts to diminish current environmental protections. 
We simply need an efficient process. We cannot afford to 
continue postponing the necessary upgrades.
    The United States lags behind China and Brazil, Germany, 
and many other countries in transmission infrastructure 
investment. With the Federal Government taking a decision 
making lead, market predictability will improve as well as the 
IBEW's ability to plan for training the next generation of 
construction linemen. It takes 3 years to train a journeyman 
lineman to perform transmission line construction and 
maintenance, and we anticipate the need for approximately 
50,000 new power linemen over the next 10 years.
    While projects are held up, we are losing valuable training 
time. By the way, our privately-operated apprenticeship 
training programs invest approximately $200 million annually to 
equip students with the skills the markets demand. For more 
than 70 years, the IBEW and our employer partners, the National 
Electrical Contractors Association, have been the largest 
private sector trainer of electrical workers in the Nation.
    Together, the IBEW and NECA operate hundreds of training 
centers in communities across the country. Our training 
programs guarantee a steady stream of skilled electrical 
workers necessary for the important work of modernizing and 
expanding our grid.
    We ask for your leadership on making our modern electrical 
grid a reality. We remain a ready partner with our employers 
and elected officials from both sides of the aisle.
    Thank you for the opportunity to testify here before you 
today.
    [The prepared statement of Mr. Ross follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Upton. Thank you.
    Dr. Chen.

                   STATEMENT OF JENNIFER CHEN

    Ms. Chen. Good morning, Chairman Upton, Ranking Member 
Rush, and members of the Committee.
    Thank you for the opportunity to testify. I am Jennifer 
Chen, an attorney with the NRDC. I am also a board member with 
the Americans for a Clean Energy Grid, a coalition including 
transmission owners and developers. We are jointly working to 
achieve a modern, efficient, and clean consumer-friendly 
transmission grid.
    NRDC supports a range of infrastructure modernization 
projects that deliver economic, social, and environmental 
benefits. We support programs promoting energy efficiency and 
distributed energy resources, and we need to ensure that 
transmission planning counts for them to avoid overbuilding.
    Today, I will focus my comments on the main barrier to 
transmission infrastructure improvements most needed to 
modernize the electric grid--a severely fragmented transmission 
planning process and how we can overcome that barrier.
    But first, I want to emphasize that environmental laws are 
not driving a delay in modernizing our grid and President 
Trump's infrastructure plan that would severely undermine these 
protections is not the solution. As DOE noted in its 
quadrennial energy review on energy infrastructure, the 
environmental review and permitting requirements are 
accomplished effectively and efficiently. This is due in large 
part to progress made by Congress in the Energy Policy Act of 
2005 as well as by the last two administrations.
    NEPA is only triggered if there is a federal nexus like 
when a project receives federal funding. NEPA and federal 
permitting requirements are important components for smart from 
the start planning. They disclose a project's impact to the 
public and provide opportunities for input including alternate 
solutions. Early robust public engagement is also key through 
reducing conflicts and mitigating impacts. Such input has 
resulted in better outcomes and stakeholder engagement helps 
avoid protracted legal battles, bad publicity, and protests.
    On the other hand, President Trump's plan to short circuit 
environmental projections and public processes would be 
counterproductive because experience has shown that 
insufficient public engagement breeds local opposition that can 
delay projects. It's far better to fix the disjointed planning 
process we can all agree is a barrier to something a wide range 
of stakeholders wants. We want our nation's transmission 
backbone to be able to deliver clean low-cost electricity from 
the windy heartland and sunny states to more densely populated 
regions. Importantly, that kind of grid modernization effort 
will create jobs, improve the efficiency of our electricity 
markets, promotes emissions-free electrification of our economy 
that is key to addressing climate change, and produce billions 
of dollars in benefits to electricity consumers.
    The problem is our transmission planning process is too 
small scale to produce a robust transmission backbone needed to 
accomplish these goals. Currently, interregional transmission 
planning proposals are dying on the vine, if proposed at all, 
far in advance of the environmental review stage. This is 
largely due to mismatched planning between neighboring regions.
    Smaller regional projects, on the other hand, have seen 
more success. FERC tried to facilitate interregional project 
development by requiring neighboring grid planners to 
coordinate with each other. But that's not the same as 
requiring them to jointly plan for transmission because 
neighboring regions use different methods in their planning. 
Asking them to simply coordinate has not facilitated these 
interregional projects. FERC sought public input in June of 
2016 to revisit this issue but it has not acted on it since. 
Interregional transmission planning, not just coordination 
between regions, must be FERC's next priority.
    As a next step, Congress could encourage FERC to use 
existing authority to implement a rule on interregional 
transmission planning and to truly modernize the grid, Congress 
could encourage FERC to require planning that anticipates the 
impact of public policies and the falling costs of wind and 
solar power.
    FERC should also require planning that accounts for 
technologies that facilitate environmentally responsible 
siting, reduces energy loss along the wires, and maximizes the 
use of existing transmission lines and other infrastructure. 
Infrastructure is long lived and expensive, but it's an 
investment and it's important to get it right. And to do so, 
it's critical to take steps now to improve the planning 
process. President Trump's plan to circumvent environmental 
protections would encourage rushing to solve the wrong problem.
    Thank you, and I look forward to answering your questions.
    [The prepared statement of Ms. Chen follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Upton. Thank you.
    Dr. Hellyer.

                  STATEMENT OF BRENDA HELLYER

    Ms. Hellyer. Good morning, Chairman Upton, Ranking Member 
Rush, and Vice Chair Olson and members of the subcommittee.
    My name is Dr. Brenda Hellyer and I am Chancellor of San 
Jacinto College, and I am pleased to testify this morning on 
the role that community colleges and San Jacinto College 
specifically can play in contributing to the Nation's energy 
infrastructure and developing the workforce and the talent 
pipeline that's necessary to support that infrastructure.
    San Jacinto College is located in East Harris County, the 
Gulf Coast region of Texas, and serves approximately 45,000 
credit and non-credit students each year. Last year, the 
college was recognized as an Aspen Rising Star Award, 
representing as one of the top five community colleges in the 
country for community college excellence.
    We are located in the heart of an energy industry. Our 
service area incorporates the Houston Ship Channel, home to the 
Nation's largest petrochemical complex, and we also support the 
NASA Johnson Space Center, Ellington Airport, and the Port of 
Houston, which is ranked number one in U.S. ports for foreign 
tonnage.
    In my written testimony, I outline some of the workforce 
challenges in the Houston region. Briefly, Houston's skills gap 
has reached critical proportions among the middle skilled 
jobs--those that require more education and training than a 
high school diploma but less than a four-year degree. Of the 
3.6 million jobs in Houston, 1.4 million, or approximately 40 
percent, are middle skills jobs. The best way to address this 
need is through collaboration and partnership.
    We have taken a national state and regional approach. No 
one entity or group can fix this challenge alone. From a 
regional standpoint, we engage area economic development 
corporations, our school districts, our universities, and our 
industries to build the pipeline for future workers.
    We are at the table together, addressing this issue from 
multiple angles. I am going to give you some examples of that--
San Jacinto College invites 6,000 sixth graders each year to 
gain hands-on experience in STEM experiments. This is through 
an event called Mind Trekkers. It's supported and it's 
sponsored by industry partners.
    We offer summer camps to kickstart students so they 
understand the jobs that are available in STEM, petrochemical, 
and maritime. We also have a speakers' bureau that's a 
grassroots effort--community colleges, our economic development 
group, and our industry partners going in to our high schools 
and our eighth graders talking about the careers and the jobs 
in our area. Last year, 12,000 students and their parents were 
contacted and spoken with about these jobs.
    We partner with industry to understand the types of 
employees they need, the skill sets required, and we adjust our 
curriculum to meet those needs. To that end, we are building a 
145,000 square foot center for petrochemical energy and 
technology. This facility is being built based on the input 
from industry. It's for industry by industry and it's funded 
from taxpayer dollars and also private donations.
    More than a dozen industry leaders serve on a petrochem 
advisory council working directly with me to guide the project. 
This facility will house an exterior glycol unit. It'll have 
programs in process technology, instrumentation, electrical, 
non-destructive testing, the craft trades, and it'll also build 
on our construction management program. All of the programs 
will emphasize and build on a safety culture. The program will 
replicate a day in the life of plant operators and technicians. 
The programs are designed not only for the new worker coming 
into the field but also to upgrade the skills of the incumbent 
worker.
    Our partnership in providing a skilled energy workforce is 
enhanced through our work with you, the Federal Government. We 
understand that a well-educated technically trained energy 
workforce is essential to advancing the President's America 
First energy plan and growing the Nation's energy 
infrastructure. To that end, community colleges have been 
working on the development of new legislation for energy 
workforce training Centers of Excellence. Two bills have passed 
and we encourage the enactment on funding of this type of 
legislation. We also encourage Congress to continue investing 
in America's labor force through grants with the Departments of 
Labor, Education, and Energy.
    San Jacinto College is working with the Federal Government 
to provide workforce training programs through the Ready to Act 
workforce grant, the Carl Perkins Grant, the Trade Adjustment 
Act. All of these are designed around building that workforce 
and they're critical to the citizens of my region but they're 
also critical to the 1,100 community colleges throughout the 
country that provide the critical workforce training.
    While this committee doesn't oversee Pell, I would be 
remiss if I didn't mention the impact of Pell and how that 
really can define how we are going to continue to feed the 
workforce and make sure that we build that workforce. There's 
2.7 million community college students using the Pell system, 
which is building our workforce.
    In conclusion, San Jacinto is working collaboratively in 
the Gulf Coast region to increase the number of students 
looking to go into these careers and workforce training, STEM, 
and the fields that really build this infrastructure. These 
programs improve the lives across our region. In the Gulf Coast 
region we are actually driving the economy of the Nation also.
    And so I can tell you from San Jacinto's perspective this 
program, how we really are going to help support the 
infrastructure is critical. But it's also critical that we have 
the support for all community colleges.
    Thank you.
    [The prepared statement of Ms. Hellyer follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Upton. Thank you all for your testimony. At this point, 
we'll move to questions from our subcommittee.
    Mr. Devine, I appreciate you being here for sure and from 
my perspective I want you to keep your job. I believe in an 
all-of-the-above strategy.
    Renewables are a big part of that. In Michigan, we've got a 
minimum mandate. Hydro is part of that. Not as much in Michigan 
as it is particularly in the Northwest, but as you may know, we 
have passed with a number of Democrats a hydropower licensing 
bill that moved through this committee and has passed in the 
House now and is waiting for action in the Senate.
    You talked about a number of hydropower facilities that are 
more than 50 years old. We need to add capacity. This is a 
renewable piece that most Americans would like but with, 
obviously, no carbon emissions, basically, from that source of 
power. If our legislation became law, went to the President's 
desk, how would this help the hydropower industry in terms of 
dollars invested in kilowatts generated?
    Mr. Devine. Well, Chairman Upton, I think that improving 
the timelines involved in the licensing process will reduce 
some of the perception of the risk in the process.
    Risk is anathema to investment. So I think that aligns very 
well with increasing investment in hydropower. There are many 
opportunities for upgrades and improvements and increasing 
energy at existing hydropower facilities and at non-power dams, 
and I think it's viewed as from these have to be financed and 
the financing is susceptible to risk and reward effects. So the 
proposals that increase the efficiency of the process and will 
help in terms of improving the overall investment opportunity.
    Mr. Upton. So I am one who believes that there ought to be 
an energy title within the infrastructure bill that, hopefully, 
moves through the Congress this year.
    Dr. Hellyer, as you know, the President had many of the 
Nation's governors here for the last couple days. A whole 
number of different issues were discussed. One of them was 
infrastructure.
    I had the opportunity last night to have dinner with my 
Michigan governor, Rick Snyder. He told me, he said, ``You 
know, if there's one thing you can really do to help create 
jobs and move on infrastructure is to expand Pell to make sure 
that it's involved in community colleges and job training.''
    In my district, we've got two nuclear plants. We've got a 
new LNG plant that they're almost ready to break ground on, 
which will, as I am told, double the tax base for that 
particular community. It's a couple years away from being 
complete but they're ready to break ground, I believe, this 
spring.
    As I meet with my IBEW folks, they have a very active group 
in Michiana, as we say--Indiana and Michigan. I've been to a 
number of their events over the years and they are very proud, 
rightly so, of the work that they do creating the jobs, the 
internships.
    I am fascinated with what's happened in Houston and the 
leading role that you play because I do believe that that 
skills gap and worker training out of be part, again, perhaps, 
of an infrastructure bill creating the jobs that we want, 
knowing that we are going to improve the infrastructure across 
the country.
    How do you both see perhaps an expanded role as it relates 
to worker training, working through our community colleges 
which, again, in my view, is so important?
    Maybe Mr. Ross, start with you and come back to Dr. 
Hellyer.
    Mr. Ross. We are always looking for skilled craftsmen or 
top-rated individuals that come out of the community colleges 
because we love getting those individuals directly out of the 
community college because that makes our job easier--transition 
them right into our apprenticeship program. At least for 
linemen it's a 3-year program--our inside program for a 
journeyman wireman like myself is a 5-year program. So any 
advanced training they get it gives them a leg up on someone 
trying to apply for our program and get in our program.
    So we work directly with community colleges. I know where I 
am from, from West Virginia, we work directly with our 
community colleges there to get those individuals. I would go 
out and visit those community colleges, encourage them to take 
an application for our program. I know throughout the country 
IBEW always works with the community colleges.
    Mr. Upton. And Dr. Hellyer, I would just say we've got a 
lot of really great community colleges in my district.
    One of them is Kalamazoo Valley--KVCC. They actually have a 
wind turbine school training folks and they have jobs right 
away as they graduate.
    Ms. Hellyer. So there are a couple of things I think could 
be done. Right now, the Higher Education Reauthorization Act is 
being looked at.
    There are some talks about making it where Pell can be used 
for short-term programs. For us, that could be very helpful, 
especially with programs like commercial truck driving that 
don't qualify right now.
    As far as working with IBEW, apprenticeship, programs, we 
do that quite often. I was in Austin yesterday for a meeting 
around a new program in trying to take high school students and 
move them into apprenticeship and going into licensing for 
plumbing, electrical, and one of the comments came up how do 
they use their Pell dollars for that.
    So I think there needs to be some more flexibility built 
into the program and because some of these programs are going 
to take longer than what you have Pell dollars available and so 
how do you leverage that.
    So you need short-term but then you also need some of the 
long term where students are going out and working and then 
coming back.
    Mr. Upton. I know Virginia Foxx would like me to say that 
that looks like additional jurisdiction for this committee.
    With that, I yield to the ranking member of the 
subcommittee, Mr. Rush.
    Mr. Rush. I want to thank you, Mr. Chairman.
    Mr. Ross, I really want to commend the IBEW Local 134 in my 
city and my state. They're doing a remarkable job rebuilding 
the--in terms of a grammar school--a closed grammar school and 
they're turning that into a union hall--really, really nice--
right next to another of our vocational high schools. And so 
they're in the forefront of really taking CTE students and 
giving them skills and training and I really want to commend 
your union for that. They're wonderful people.
    Dr. Hellyer, the city of Houston has a number of 
comprehensive workforce development strategies that includes 
training and in K to 12 levels, community college levels, 
university, and vocational educational levels. This decision 
allows candidates to be trained and developed throughout all 
stages of the educational spectrum.
    My workforce development bill attempts to run this model to 
a national level and is aimed at training minorities, women, 
veterans, and unemployed energy workers for good-paying jobs 
and careers.
    First of all, I want to commend you on your leadership in 
San Jacinto College and I hope that you will work with my 
office to help make my bill a reality as part of a broader 
infrastructure package. I think that you have shown tremendous 
insight into the needs of our nation by what you're doing at 
San Jacinto and I also want to commend you. I think that your 
leadership is surely and truly inspirational, notwithstanding 
the comments of my friend Chairman Upton's subcommittee.
    Mayor McCarthy, you are on the forefront on trying to 
reconcile the needs and priorities of your constituents with 
the budgetary restraints so many of our states and cities are 
facing. What are your thoughts on the administration's proposal 
asking states and local municipalities to cover 80 percent of 
new funding for infrastructure projects?
    Is this realistic, in your view? Are you concerned with the 
Federal Government's attempt to shirk its responsibility of 
investing in a serious and meaningful way in our nation's aging 
energy infrastructure?
     Mr. McCarthy. Thank you, sir.
    I approach it that the 80/20 funding formula that's 
proposed is really oversimplistic. There are, again, many 
components that could be financed within the revenue streams 
that exist today. But some of the emerging technologies are 
new. You have to do the proof of concept. They're going to 
happen. They're happening in other countries. You're seeing 
things in South Korea. You're seeing things in the Mideast 
where they're developing and deploying technologies faster than 
we are doing here in the United States.
    And so how do you build that resiliency into the grid and 
at the same time create a platform that really positions not 
only our communities but the country as a whole to take 
advantage of it and go forward so that you're creating jobs, 
you're creating economic opportunities, and you're improving 
just the quality of life and, hopefully, in your deliberations 
that you will look at those formulas and create the regulatory 
environment that allows things that are self-financing to go 
forward but at the same time look at those things that are new 
and emerging that we need assistance and are going to need some 
subsidy or large amount of financing from the federal 
government to ensure that they're developed, deployed, and 
continue to allow this country to lead in a global environment.
    Mr. Rush. My second question to you, Mayor, is the 
administration--under this administration the agencies that had 
been previously preparing plans to increase resilience to 
climatic events for access under their purview are now 
forbidden from even uttering the phrase ``climate change,'' 
much less preparing for its consequences and its symptoms.
    Do you see the need for significant federal investment in 
local energy assurance plans to advance resiliency efforts 
including proposals to combat climatic events? Do you----
    Mr. McCarthy. I am sorry. Directed to me again?
    Mr. Rush. Yes, sir.
    Mr. McCarthy. Climate change is happening. There's debate 
in terms of what's causing that but it's happening. And so we 
have to take that into account in terms of public policy and 
how do you look to reduce greenhouse gases.
    Most of the scenarios that are out there also allow for 
cost savings, improved efficiencies, and job creation when you 
do the reduction in greenhouse gases so that you're improving 
the environment at the same time creating opportunities for 
some of these emerging technologies and emerging skill sets 
where we have to have a work force--and some of the other 
panelists have talked about--that are able to provide these 
skill sets that we need for services that people demand.
    Mr. Rush. I yield back, Mr. Chairman.
    Mr. Olson [presiding]. The gentleman's time has expired. 
The chair now calls upon the chairman of the full committee 
from the Beaver State, Mr. Walden, for 5 minutes.
    Mr. Walden. I thank the gentleman. As an Oregon Duck, I 
don't always refer to it as the Beaver State, although that is 
our mascot.
    [Laughter.]
    So, Mr. Ross, thank you for being here. To all of our 
panelists, again, thank you for your testimony on this very 
important set of issues.
    I know I've worked closely with IBEW out in Oregon--Local 
48 and 659, I think--and toured the apprentice operation there. 
It's very impressive. Where's the gap? What do we need to be 
doing? I know we don't directly have that jurisdiction but this 
is important because we can help streamline projects without 
diminishing the environmental piece of this.
    We can do a lot of work here to get pipelines and power 
lines and broadband going. But if we don't have the skilled 
workforce necessary to do the work, we got a problem.
    So can you talk about your apprenticeship programs and 
where you're at and what we need to be thinking about?
    Mr. Ross. Well, we need a lot more, quite frankly. We are 
doing our level best to try to attract individuals into our 
programs. For our outside program we have approximately 4,600 
registered apprentices for the line side and around 32,000 for 
our inside program and we certainly could use a lot more. But 
what you run into, we are unique in construction and for most 
people it is familiar--we work ourselves out of a job. So we 
are always looking for the next one.
    So good steady work forecasts certainly helps our 
apprenticeship programs, certainly attract individuals into our 
programs but also keeps them working. So it's hard for a local 
union to accept a bunch of apprentices if they don't have a 
place for them to work.
    Mr. Walden. Right. Right.
    Mr. Ross. So that's our dilemma. It's kind of a catch-22. 
So we are always looking at the next job, and we certainly went 
through a major recession in 2007 and '08.
    Mr. Walden. Yes, sir.
    Mr. Ross. We would call it depression for our industry.
    Mr. Walden. I would, too.
    Mr. Ross. We had tremendous unemployment. Most of the 
locals weren't taking apprentices in because they couldn't keep 
them working.
    So we are trying to get caught up because we are in an 
economic boom for construction right. We are having some skills 
shortage. That's why we are working with community colleges and 
different groups trying to get those individuals help.
    Mr. Walden. Yes. I know in the town of my birth, The 
Dalles, there's Columbia Gorge Community College, actually, in 
both Hood River and The Dalles and they started a wind energy 
program a long time ago, teaching safety and some of the 
electrical skills as well.
    I would like to touch on too when I did a series of town 
halls last spring we got some development underway or proposed 
in Oregon and some who tried to block this sort of development 
ridicule these jobs as temporary jobs. I heard it a lot at the 
meeting, and it kind of perplexed me because while my wife and 
I have never constructed our own house, I think if we ever did 
when the carpenters were done I wouldn't want them to move into 
one of the bedrooms. I would want them to move on to the next 
house. But this is an argument and it's an argument on the 
left, and I heard it a lot. Can you speak to those temporary 
jobs and are they not worthy? That's a rhetorical question.
    Mr. Ross. It is rhetorical, yes. Like I said, we are always 
looking for the next project no matter how short. I am an 
electrician by trade, OK. I just happen to be working in 
Washington, D.C. now. But I've taken projects that were only 
supposed to last 3 weeks and be there 2 \1/2\ years.
    So I think it's a pretty sad state of affairs, because all 
our jobs are temporary in construction. Quite frankly, if you 
didn't work yourself out of a job you wouldn't get the next 
job----
    Mr. Walden. That's right.
    Mr. Ross. Because the idea is to get the job done on time 
and on budget. So----
    Mr. Walden. As you know, we are spending a lot of time here 
trying to streamline the permitting process. Again, we get 
criticized that somehow we are diminishing the environmental 
nature of it. But that's not what we are up to.
    I have a tiny little community in central Oregon that I 
think spent years trying to get four power poles on Bureau of 
Land Management land to go through the permitting process, and 
I know others say, ``Oh, it never slows you down.'' It does.
    Half of my district--more than that--is federal land. So we 
encounter this everywhere we go, and it took them 3 or 4 years 
to get these four power poles sited so that they could get 
three-phase power into Mitchell, Oregon for the first time.
    Do you run into--these permitting delays?
    Mr. Ross. Well, I kind of addressed that in my testimony. 
But yes, we will run into those issues all the time. 
Unfortunately, some of these projects would put a lot of people 
to work. Most of them have been through the siting permitting 
process and are just sitting there basically to get done but 
being held up through someone on the other side doesn't want, I 
get where people don't want a power line in their back yard. I 
get that.
    Mr. Walden. Sure.
    Mr. Ross. But in some cases----
    Mr. Walden. They do want the power to come on when the 
switch is thrown, though.
    Mr. Ross. Exactly. When people's lights go out they want 
their power back on. They don't really care what they look 
like.
    Mr. Walden. Well, I thank you and I thank all our witnesses 
for your input.
    And Mr. Chairman, I yield back.
    Mr. Olson. Gentleman's time has expired.
    The chair now calls upon the gentleman from the thirteenth 
largest city in California--Stockton, California--Mr. McNerney, 
5 minutes, sir.
    Mr. McNerney. Well, thank you for that little statistic, 
Mr. Chairman, and I thank the panel for coming and testifying 
this morning.
    The U.S. clearly needs to modernize our electrical 
infrastructure. The technology exists today to do that. We can 
make our grid resilient and responsive. We can meet consumer 
demands that are changing by the day. We can meet the demands 
of intermittent resources, physical and cyber-attacks, and the 
changing weather patterns that are brought on by climate change 
that have brought down the grid in Puerto Rico, in Texas, in 
New York, New Jersey, and in California.
    So we have the capabilities to do that and, fortunately, my 
good friend, Bob Latta, and I have formed a Grid Innovation 
Caucus to make people aware of what's available and the need to 
move forward on that. So I just wanted to make that clear.
    Mr. Devine, I worked on the Hydropower Modernization Act 
and one of the things that struck me was definitely how long it 
took to get permits, how expensive it was to get permits.
    Could you say a little bit about how much hydropower we 
could expect if that was improved?
    Mr. Devine. I would hate to guess in terms of the total 
amount of capacity involved but it's thousands of megawatts. 
It's very significant.
    As I mentioned to Chairman Upton, the view of the risk in 
the amount of time it takes to improve even somewhat 
straightforward projects is very difficult for investors to 
accept. So I think there is a considerable amount of available 
upgrade potential and power to be added to existing dams that 
have no power and I think it's in the thousands of megawatts.
    I am working on a project right now where we have an 
upgrade potential of something on the order, of an existing 
station, something on the order of 20 or 30 megawatts. Now, 
that may not seem large but that's just one station in 
location. That's a significant amount. We are now in our 
seventh or eighth year of licensing. It's not the only issue, 
of course, but the licensing process can hold up these upgrades 
and these improvements for a considerable amount of time.
    It's very difficult for the investors to wait that long in 
order to realize a return on that.
    Mr. McNerney. Thank you.
    Mr. Ross, you mentioned private activity bonds. Could you 
expand on that a little bit? I've done some legislative work on 
that. How important would that be in terms of municipal bonds 
and other tools?
    Mr. Ross. I am going to have to take a pass on that one and 
get our political department or someone get you an answer to 
that, OK?
    Mr. McNerney. Dr. Chen, you mentioned pretty pointedly that 
we would require regions to coordinate transmission planning. 
Could you go into that a little bit? How would that work? How 
would that speed up our process? How would it make it more easy 
to put in transmission?
    Ms. Chen. All right. So there are two parts to that and I 
appreciate that question.
    So first, in the transmission planning process, the 
different ISOs and RTOs plan separately and they're required to 
coordinate by FERC for interregional projects. But, 
unfortunately, that's not really producing any projects. So 
what we really need to see is a full joint interregional 
planning process. FERC can use its existing authority to extend 
order number 1000 to require this and Congress could write 
letters to FERC, hold a hearing for FERC to ask how they can 
move forward in that process.
    Separately, in terms of siting, especially some of these 
long lines, coordinating between state and federal processes as 
well as locals and other stakeholders--landowners--would be 
greatly helpful. We've seen great success and, for example, in 
the Department of Energy and Department of Interior working 
together with the State of California to site 9 megawatts of 
solar in just 9 months by coordinating together, doing as much 
of the environmental review concurrently and jointly, and that 
sped things up a lot.
    There is a great example about a Midwestern project, 
CapX2020, that I can go into further. But a University of 
Minnesota report highlighted a lot of successes that arose out 
of the coordination there as well.
    Mr. McNerney. Very briefly, does anyone have anything to 
say about ARPA-E? Would the elimination of ARPA-E, is that 
going to set us back in terms of our electrical infrastructure 
development? Anybody on the panel.
    Mr. Devine. In terms of the, Congressman McNerney, the 
renewable portfolio standards that you're referring to?
     Mr. McNerney. No, ARPA--that's the advanced renewable 
energy or advanced energy research based on DARPA.
    Ms. Chen. Very briefly, I think that would set us back.
    Mr. Olson. The gentleman's time has expired. The chair now 
calls upon the gentleman who was the former chairman of the 
full committee, the current vice chairman of the full committee 
and a proud Texas Aggie, Mr. Barton.
    Mr. Barton. Well, we thank you, Mr. Chairman. Thank you for 
that introduction.
    This is a difficult hearing for me to get my arms around 
because we are trying to put a government spin, apparently, on 
private sector investment in infrastructure.
    I do believe there's a legitimate public interest certainly 
in the permitting and licensing part of these big 
infrastructure projects. We certainly need to protect our 
environment.
    And I think you could argue that if you look at public 
sector infrastructure--highways, bridges, ports--compare it to 
private sector infrastructure--pipelines, refineries, 
transmission lines--the private sector has done a better job.
    We seem to be more up to date in our private sector 
infrastructure than our public sector infrastructure. So, I 
think while it's important to look at permitting reforms and 
things like that, if it's not broke don't fix it.
    I guess one question I have to the mayor of Schenectady--
it's always good to have local officials here--you're closer to 
the problems.
    There's been an ongoing problem for decades in the Midwest 
and the Northeast. When you need power, electricity, natural 
gas it's hard to get the permits for the transmission lines or 
the pipelines to get that power or that product to your part of 
the country.
    Do you have the solution on how to balance the legitimate 
needs of the state and local government against the public good 
and interstate commerce of getting the product from point A to 
point B if it cross state lines?
    Mr. McCarthy. I don't, Congressman.
    Mr. Barton. That's an honest answer.
    [Laughter.]
    Mr. McCarthy. Even though I think the opportunity is out 
there, as you see some of the emerging technologies where you 
had centralized points of generation and the distribution 
network was, clearly, in one direction that is changing.
    So where you have solar and wind that are being added to it 
that can provide supplemental points of generation and the 
ability to balance the load so that you don't get the peak 
demand anymore, those will take some of the pressure off the 
need to have the central points of generation at the same time 
will hopefully be able to allow it to be done in a cost-
effective manner for the consumers who will take advantage of 
some of the newer concepts and products that are out there.
    Mr. Barton. That's actually a very good answer. If you 
eliminate the need to cross the state line, you have solved the 
problem and so more of these alternative energy projects that 
are on site. Those eliminate that need. But I think you're 
still going to need to somehow figure out a way to move natural 
gas or oil from Texas to New York or Chicago. There are going 
to be occasions where you still need to cross state lines. But 
your solution is----
    Mr. McCarthy. And I agree with that. I don't have a 
solution, though, for the regulatory environment or the ability 
to make sure that adequate capacity is there.
    Mr. Barton. This last question is a little bit off subject 
but it is infrastructure related and that's who should be the 
lead and who should pay to protect our infrastructure, our 
power plants and things like that against cyber-attacks? So OK, 
Mr. Slocum, just----
    Mr. Slocum. Yes. We own quite a bit of that infrastructure 
and we certainly do a lot to protect especially our most 
critical facilities and our critical systems that we use to 
operate the bulk electric system from cyber-attacks. So we 
cover those costs and ultimately those go to our ratepayers 
today. But I do think there is a need for a discussion about at 
what point does that stop for private industry and what point 
does the government help to do that in areas where we are 
getting into even acts of war and things of that nature.
    So I have a concern that private industry not have to be 
burdened with those costs. But we are certainly ready to work 
together with government to meet those needs and make sure 
their infrastructure is protected.
    Mr. Barton. I see my time has expired.
    Final question--are you any kin to the former football 
coach who's my great friend, R.C. Slocum of Texas A&M?
    Mr. Slocum. I can't say that I am but it's not the first 
Slocum I've been asked if I am related to. So thanks.
    Mr. Barton. OK. Thank you, Mr. Chairman.
    Mr. Olson. Gentleman's time has expired.
    The chair now calls upon a friend who rooted against the 
L.A. Dodgers in the World Series and for our Houston Astros, 
Mr. Peters, for 5 minutes.
    Mr. Peters. Thank you. I always enjoy hearing what my 
introduction is going to be, Mr. Chairman. So thank you very 
much. Thanks for being here. I want to ask Dr. Chen a couple 
questions.
    Dr. Chen, I have to say I read your testimony and we hear 
all the time from businesses and investors that regulatory 
system can cause uncertainty and the length of delay can cause 
projects not to get built or be more expensive or result in 
investors not wanting to take these risks. The citations in 
your testimony to the Department of Energy's own statistics, 
the Center for American Progress, I understand that people 
argue that it isn't a problem. But we hear from people who are 
actually doing the investing that it is a problem and I just 
don't think that we do ourselves any favors on this side of the 
aisle by not thinking about what we could do to improve the 
process to achieve high standards and yet do it more quickly in 
a way that's more certain for people.
    What happens, I think, when we don't do that is that we get 
the kinds of things that President Trump has proposed, which is 
an evisceration of the regulatory system that doesn't get us 
high standards.
    So I wanted to just ask you about a couple things that Mr. 
Slocum suggested which seem, to me, reasonable and see if you 
have an issue with them.
    Could Congress require concurrent NEPA analysis and 
environmental reviews by all permitting agencies? Is there an 
issue you have with that?
    Ms. Chen. No. So, certainly, there are a lot of provisions 
in place that enable a joint review so----
    Mr. Peters. Could it be required?
    Ms. Chen. It could be. I haven't----
    Mr. Peters. OK. How about requiring concurrent NEPA 
analysis--well, that's the same thing--requiring cooperating 
agencies to use the information already contained in the lead 
agency's NEPA document as the basis for their permit-related 
reviews?
    Ms. Chen. I think it's something to consider. I think there 
are a lot of efficiencies that can be explored. But our main 
issue is eliminating or curtailing environmental protections.
    Mr. Peters. I understand, too, and I think that's not where 
I want to get to. The other thing is whether we should set a 
deadline, and I got to tell you I was shocked when I got on 
this committee and heard that hydropower which is, basically, 
clean base load energy--takes 10 years to get a permit for.
    And the thing that we learned is something you suggested, 
too, in your references to success stories. In the success 
stories you have these people who are remarkably talented and 
well-motivated to work together and they get it done in 9 
months. That's a really ad hoc kind of cross-your-fingers 
approach to permitting, I think, because you might not get 
people who are so willing to work together. You might get 
opponents who are more vociferous.
    And for me, it would be much more comfortable if we could 
find a way to get these decisions made in the right way, in a 
way that protects the environment but also gives an answer. 
I've always said no is the second best answer. Let people know. 
And I was just actually looking at Twitter because there is 
some downtime in these hearings, believe it or not, and NRDC is 
opposing a pipeline very vociferously right now on Twitter, and 
that's fine. But I just don't think there's any excuse for not 
getting this done in a quicker way. And so I would like to work 
with you.
    By the way, you went to the finest law school in the United 
States of America. I would like to work with you, as a former 
alum of the same school, to see if we can't come up with better 
responses to the concern that we are hearing from the economy 
that this permitting process is in the way. It's too 
inefficient. I think we can do it in a way that's useful.
    Mr. Devine, I wanted to ask you, just in case we haven't 
covered it, you said in your testimony that you didn't think 
that Congress was at fault for the length of time it takes to 
do hydropower.
    So you tell me if there's anything Congress should do to 
address the situation out there.
    Mr. Devine. Yes. Thank you, Congressman Peters.
    I think there is, definitely. Let me do it by example, 
possibly. So I think what FERC tried to do with the integrated 
licensing process was try to bring some order and some 
efficiency to that process. It was a collaborative rulemaking 
process, which meant that all of the agencies and all 
conservation groups and the industry was involved in coming up 
with that process. And yes, it's still a long process but it's 
very structured and you go through the process and FERC, I 
think, has brought some efficiency in their effort to bring to 
the federal hydropower licensing process.
    The difficulty that we have in the process is you get to a 
certain point and and there are other federal and state 
licensing processes that then interact with that process and 
they don't have any sort of schedule particularly and I think 
the courts have actually said--I am not an attorney--that FERC 
is not in a position to force those agencies to meet any 
particular deadlines. So that means there is no deadline.
    Mr. Peters. So we should look at action-forcing, perhaps?
    Mr. Devine. Yes, I think so.
    Mr. Peters. All right. Thank you. My time has expired. I 
really to appreciate all the witnesses being here.
    I yield back.
    Mr. Olson. Gentleman yields back.
    The chair now calls upon himself for 5 minutes.
    My first question is for you, Dr. Hellyer, and again, it's 
so great to have you here this afternoon. You are the best of 
the best.
    As we both know, incredibly, I think kids these days still 
think they have to get a 4-year Bachelor's degree to be 
successful in America. But as San Jac shows, there are 
incredible opportunities and jobs related to American energy 
and infrastructure for kids without a B.A.
    Can you please tell me a little about what draws your 
students to your programs and how you're actively in the 
community to raise the profile of energy industry courses?
    Ms. Hellyer. Excuse me. I think it comes down to our 
relationship across all the sectors--with our K through 12 
partners, with our university partners, but mostly with our 
industry partners--and we tackle that together.
    As I mentioned, we bring 6,000 sixth graders onto campus. 
That is based on hands-on experiments so that they can be 
working with industry partners at the table, seeing what 
happens in our petrochem facility, seeing what's happening in 
the maritime industry. Then we also reconnect with them again 
as they're going through eighth grade and we give those 
teachers experiments so they can refresh that in the classes. 
And in ninth grade, there is the speakers' bureau where we are 
going out into the high schools with, again, industry partners 
talking about the jobs.
    We had had many years where we weren't really focusing on 
the jobs in our region, and when you can become a process 
operator making $100,000 a year with an Associate degree, you 
start to look at that differently when you can be a welder and 
making $75,000 a year.
    And so we are really putting that marketing campaign 
together but that marketing campaign is for students, it's for 
parents, and it's also for teachers and counselors in our high 
schools because they don't necessarily understand all the 
pieces of our region. But then having industry really engaged 
in our programs, having internships, having apprenticeships 
where they can get hands-on training and then being involved in 
that interview process. So it's across the board partnerships.
    Mr. Olson. I would just ask you to brag. Can you talk about 
how you work with employers and local high schools to help 
students transition into industry?
    We've heard some confirm this--one day in May every year 
some young men and women walks across the stage, gets his high 
school diploma, spins around, puts on a different cap and gown 
and walks by and gets an AA from San Jacinto.
    Please explain that success you had with merging the 
education sector with your work there at San Jacinto College.
    Ms. Hellyer. So we have eight early college high schools 
and these are early college high schools designed for high 
school students to be earning an Associate degree at the same 
time as they're getting their high school diploma.
    So they will actually earn an Associate degree 2 weeks 
before they graduate from high school, and it's a great 
program. It's an intense program and people say, ``Well, how 
are those kids ready?'' It's because of the screening process. 
It's because of support systems. And where do those go to? I 
can tell you I've had students going to Princeton, UT, Penn 
State--just all across the country they're going to the top 
colleges after they graduate from us. But we also have a 
similar program for career and technical education. So, again, 
they're getting their career and technical process tech degree 
or a welding degree so they can go into the workforce right 
away.
    So at our graduation the youngest graduate can be 17 
earning an Associate degree and in December the oldest was 72. 
So we serve everybody.
    Mr. Olson. That includes my alma mater Rice, Mr. Flores' 
alma mater Texas A&M, along those litany of UT and other 
schools?
    Ms. Hellyer. Yes. Our top five transfer universities, A&M 
and UT, are right there, and then all the University of Houston 
universities.
    Mr. Olson. Thank you.
    One question for you, Mr. Slocum. We know that building a 
new transmission line, especially longer ones across the state 
lines or electricity markets is remarkably complex. You said a 
decade, in some cases, in your opening statement.
    What is the largest driver for these delays? Is there 
anything Congress can do to make this move faster?
    Mr. Slocum. Yes. I would say the largest delays that we 
have--we have an example of a project between Iowa and 
Wisconsin that we got approval for I believe back in 2011, if I 
have my date correct, and we don't expect to complete that 
project until 2023.
    So we plan the project and we stand ready to build the 
project. But it's getting that permitting process done in the 
middle. And so I agree with a lot of what's been said today, 
that there are ways that we can more efficiently move through 
that process such that we can get to the point where we are 
building the lines, building the projects and those benefits 
are flowing to consumers rather than waiting and going through 
a serial permitting process.
    Mr. Olson. Thank you.
    One final question for you, Dr. Hellyer. My dear colleague, 
Mr. Green, in his opening statement mentioned I've not talked 
about the Houston Astros, and that's true. I didn't do that 
because I knew you could talk about the Houston Astros for me.
    [Laughter.]
    They went to the World Series in 2005 for the first time in 
the Astros' history. Two star players were on that team--Hall 
of Famers--Roger Clemens, Andy Pettitte.
    Where did they start playing there all beyond high school? 
What school was that?
    Ms. Hellyer. San Jacinto College.
    [Laughter.]
    Mr. Olson. Thank you. I yield back and yield to the 
gentleman from Texas, Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman, and I thank you for 
allowing me to testify or to ask questions, rather.
    I was shocked because one of the successes of San Jacinto 
College, Andy Pettitte--a great baseball player but he comes 
back every year and has a great golf tournament that supports 
San Jacinto College. And I am not a very good golfer. I haven't 
had a chance to play but I will at least go to the reception.
    So thank you, and thank all our witnesses for being here. I 
have a very urban district in Houston and one of the campuses 
of San Jacinto College is there and I have students from our 
district who go to the other two campuses. And I just want to 
thank Dr. Hellyer and the leadership both of the board of 
trustees but over the years at San Jacinto College because I 
was a state senator before I got to Congress I saw San Jacinto 
College doing some of the things that are so important today.
    Dr. Hellyer, can you elaborate on the partnership with 
local industry--the college heads and the Center for Petroleum 
Energy and Technology?
    I am interested in sharing more about how the industry 
guidance towards the curriculum is getting students ready for 
those real jobs today and not just generalized certificates, 
because I've been there and seen that partnership between the 
industry--the people who hire our constituents and the college.
    Ms. Hellyer. So one of the things with industry we have 90 
petrochemical plants right there around us and it really is how 
do you partner. And so I make it very clear I want the good, 
bad, and the ugly around our programs and we are going to fix 
the bad and the ugly, and that's what the conversations are.
    And so, for example, our electrical program, as we've dug 
into that, it was too focused on residential. We have 
redesigned it where it has a commercial and industrial phase. 
Industry has come to the table and gotten us almost $2 million 
in donations so that we can really have the program that they 
need. We have built in the kind of testing they want, the kind 
of components they feel are so critical, the safety components, 
and we are just constantly revising our programs.
    One of the things that we needed to do was hire somebody 
from industry to run the program and so we have hired a man 
named Jim Griffin who has been a plant manager or in the 
industry for about 30 years and he's retired to work with us. 
He has the respect of industry and he is working with us on how 
we continue to develop and develop our faculty around that. 
It's the same approach we took with our maritime programs.
    But it really is creating the environment where you're 
having the conversations and then you're responding and you're 
bringing the resources to the table as partners.
    Mr. Green. I want to ask a question of Mr. Ross.
    Mr. Ross, when I was going to college I didn't play 
football well enough to get a scholarship so I did my 
apprenticeship as a printer while I was going to school.
    Can the IBEW or other trades partner with programs like San 
Jacinto College? How hard is it to get college credit, for 
example, for what may be the standard apprentice program for 
IBEW or plumbers or pipefitters or anything like that?
    Mr. Ross. Well, as I stated earlier we certainly work with 
community colleges in an attempt to try to steal their 
graduates and to get them into our program, definitely. Second, 
our 5-year inside apprenticeship program we work with community 
colleges for those individuals once they complete our program 
to get an Associate's degree. So once they graduate they work 
with the community colleges to get their Associate's degree. So 
they--our program is accredited for--toward an Associate's 
degree. So that's what we do.
    Mr. Green. And I think that's important because most folks 
getting out of high school want to earn a living and they may 
not be able to afford a college and go to college and they also 
may not want to take out loans so they could actually both get 
a job and do an apprenticeship. And I always remember my third 
year in my apprenticeship I actually started making decent 
money and I was able to get a business degree. And, so that's 
why I would like to see if we could structure that with our 
trades and also our community colleges. That's really important 
in my area in Houston and San Jac is part of it.
    And I know you're getting competition from some of our 
other community colleges. I am trying to get them to realize 
that trades skills are really important and, frankly, I 
remember when I was graduating from college I had an offer of 
$600 a month--1971 dollars, by the way--and I explained to 
those companies that offered me that--I said, ``Well, I am 
making $850 now and so I think I will stay in Houston and help 
manage this printing business.''
    So that can be done but mine was just lucky. I would like 
to see it structuralized so whether they be in our district or 
anywhere else they can get that training and if they want to go 
on and get an electrical engineer's degree, that's great. But 
they can at least support their families.
    So Mr. Chairman, I want to thank you and you and I both are 
Astros fans and I know we'll be at the White House next week.
    Mr. Olson. Yes, we will. Gentleman yields back.
    The chair now calls upon the gentleman from the 
Commonwealth of Virginia, Mr. Griffith, for 5 minutes.
    Mr. Griffith. Thank you very much, Mr. Chairman, and since 
you always like to talk about sports I would be remiss, coming 
from the Commonwealth of Virginia, if I didn't mention the 
number-one basketball team in the country is UVA. But we are 
particularly proud in my district of the fact that our Virginia 
Tech Hokies beat the number-one team a couple week back and 
last night dispatched with the number five Duke team. So we are 
very proud of that.
    The district is one that has a lot of assets. We are a coal 
mining district. We have natural gas. Last week, I attended a 
meeting with a solar company in district. But, Mr. Devine, we 
also have a lot of water and hydropower is an essential 
component of an all-of-the-above strategy, which I have always 
supported, and I believe should be included in any 
infrastructure package that passes through this committee.
    I had a bill earlier or last fall--earlier in the session--
H.R. 2880, which streamlines the licensing process for the 
construction of closed-loop pump storage hydropower projects. I 
see those as giant batteries that are very energy efficient. I 
enjoyed reading your testimony where it talks about how hydro 
is the number-one ``clean energy source in the country,'' and I 
was wondering if you could explain to folks exactly how closed-
loop pump storage hydro projects provide to our grid.
    Mr. Devine. Thank you. Be a pleasure to do so.
    So one of the aspects about pump storage is that it does 
help to bring in other renewable energy sources. It helps to 
regulate the grid in being able to incorporate those other 
renewable energy sources. The closed-loop part of pump--
basically, what pump storage is is that during periods--
historically, during periods of high demand an upper reservoir 
would throw water down to the lower reservoir and generate 
electricity in doing that. And then during periods of lower 
demand, base load stations like nuclear or coal would use 
energy to pump that water back up to use it at a more peak 
time.
    I think the role of pump storage is now changing. It's 
changing significantly, because it's now very critical to bring 
stability to the grid during the--and incorporating the other 
renewable energy generation opportunities into the grid and 
keeping stability to the grid.
    So the closed-loop part of this would be that while some 
pump storage projects are using water from, say, a river system 
that--in flowing by that would pump up water to the upper 
reservoir and then release it back to the river. A closed-loop 
system basically brings water into the system for one time and 
then is just constantly moving that water back and forth 
between the upper and lower reservoir. It only takes a little 
bit of water then to make up for some evaporation losses. So 
that closed-loop system, once built, basically operates by 
itself alone without any additional water flow or impact to the 
environment once built.
    Mr. Griffith. And as a result of that, do you agree that 
that warrants expedited consideration by FERC and with some 
relaxed regulations because we are using the same water over 
and over again so that we don't have as much impact on the 
environment?
    Mr. Devine. I do, and one of the main reasons is because 
oftentimes what's indicated to be the primary issue with 
respect to those is the effect of the river, where the water is 
being flowing into and pumping out of--fishery impacts, 
sediment impacts, other related potential impacts. With a 
closed-loop system, once you have built and filled these 
reservoirs and take care of that in the original licensing, you 
don't have that potential issue any further.
    So I do believe that it deserves that more efficient 
process and expedited licensing process.
    Mr. Griffith. And we've been interested in--because we hear 
all the time from folks who oppose coal that you all need to 
transition, we've been interested in maybe putting one of these 
inside an abandoned coal mine because then there's really 
virtually no impact to the environment. Would you agree with 
that?
    Mr. Devine. Yes. I think there's opportunities with a lower 
reservoir potentially to be inside old mining facilities. I 
think there have been several of those in the past proposed and 
some actually moved through the--back in the '80s I think it 
was, or early '90s, move through the processing and were not 
able to get the financing, not able to get built at that point 
but moved through the whole process of permitting and were 
closed-loop systems and using old mines for the lower 
reservoir.
    Mr. Griffith. We have a lot of people who are very 
interested in this and anybody that is interested in investing 
in the 9th Congressional District for doing one of these we've 
got plenty of water to put into the system.
    Mr. Slocum. I will just quickly mention ITC may be 
interested in that and we do have a project just as--exactly 
what you just mentioned in northwest Arizona that we've 
proposed and we've submitted that to FERC. And so I agree with 
everything that was just said. Thanks.
    Mr. Griffith. Thank you, and appreciate it and yield back, 
Mr. Chairman.
    Mr. Olson. Gentleman yields back.
    The chair now calls upon the gentlelady from Florida, who 
is a huge fan of the chancellor of University of Houston--Dr. 
Renu Khator, just like Dr. Hellyer and myself, Ms. Castor, has 
5 minutes.
    Ms. Castor. Well, thank you, Mr. Chairman.
    I do have great respect for the University of Houston 
Chancellor Dr. Khator and I am sure she was as excited as you 
that her old alma mater, the University of South Florida, 
defeated the University of Houston in women's basketball last 
week.
    But thank you for giving me time to be ready with that one. 
I want to thank the witnesses for being here today. Many of you 
have cited in your testimony the importance of modernizing 
America's electrical grid and how that would be a very 
important piece of an infrastructure plan for the country, and 
I agree.
    Many of you have cited benefits of modernizing our grid. 
There is creating higher-paying jobs, building in greater grid 
resiliency, greater efficiency for our businesses and electric 
utilities and so much more. Many of you know that the 
Democratic colleagues on this committee have drafted a piece of 
legislation called the LIFT America Act. My contribution to the 
LIFT America Act has been to promote a modern grid that 
includes clean energy distribution and really trying to bring 
the most modern technology that we have developed to bear in an 
infrastructure plan. I think it's clear that if we were to make 
a real investment in clean, reliable, and cost-effective energy 
resources, the country would reap huge benefits.
    Ms. Chen, in your testimony you highlight the importance of 
technological innovations like expanded grid technology, smart 
meters, energy storage as part of upgrading the nation's power 
infrastructure. Can you elaborate on your vision for a more 
modern electrical grid with expanded distribution and greater 
technology and what would we need to build that?
    Ms. Chen. Sure. That response--I probably don't have enough 
time to fully flesh that out. But I think the number-one thing 
to think about here, especially when we talk about more clean 
innovative technologies on the distribution system is being 
able to integrate it with the larger bulk transmission grid so 
that that way whatever savings in electricity that you don't 
have to purchase from the bulk electricity system you can reap 
through fewer requirements on the transmission grid 
infrastructure, lower requirements on generation infrastructure 
that could be very costly for your consumers. But at the same 
time, if you integrate these distributed energy resources like 
storage, demand response, energy efficiency, solar panels, you 
can also allow them to recover revenues from the wholesale 
electricity markets.
    So one of the great things that FERC recently did was 
finalize the storage rule that enables storage, at least, to 
compete in the wholesale electricity markets. What it left 
behind is the distributed energy resources. There's a component 
to that rule that would have enabled those resources to also 
participate in the wholesale electricity markets.
    So FERC is going to convene a proceeding to investigate it 
further and we would love to see distributed energy resources 
to be able to participate in the bulk electric transmission 
system. So that kind of integrated system would be the overall 
large framework picture that we have for the modern grid.
    Ms. Castor. So you would encourage the Committee to urge 
FERC to move forward on that along with greater planning in 
advance across regions to help save money and become more 
efficient and put all those technological tools to use?
    Ms. Chen. Right. Absolutely.
    So this all goes hand in hand in the transmission planning 
process and the regional operators' load forecasting process. 
They have a lot of planning that goes on. Sometimes it's not 
holistic enough to account for everything that's on the 
distribution system.
    So, certainly, including these distributed energy resources 
in those plans would ensure that we don't overbuild and, again, 
it would ensure that if they can participate in the markets 
they could reap some of those revenues.
    Ms. Castor. And I just want to close by saying that I think 
there was bipartisan concern that President Trump's 
infrastructure plan, when it was released, included nothing in 
regard to modernizing America's electrical grid, just simply no 
mention, and I think that was a real absence of vision. Just 
like the plan included no mention of broadband expansion across 
the country, and I think this committee has a responsibility to 
take up that charge on a bipartisan basis with the matters that 
are in our jurisdiction and help lead the way.
    We can't do infrastructure and create these high-paying 
jobs and take our country to the next level unless 
infrastructure also means a modern electrical grid and greater 
broadband.
    So I yield back my time. Thank you.
    Mr. Olson. The gentlelady yields back and the chair wishes 
to inform the gentle lady that she publicly called Dr. Khator--
her new home getting defeated by her old home. I've sent her a 
text message about the statement so be prepared for a response 
if it hasn't come already.
    The chair now calls upon the gentleman from Indiana, the 
Hoosier State, Mr. Bucshon, for 5 minutes.
    Mr. Bucshon. Thank you, Mr. Chairman.
    Earlier this Congress, the House unanimously passed my 
bill, H.R. 2872, the Promoting Hydropower Development at 
Existing Non-powered Dams Act. H.R. 2872 would promote 
hydropower development at existing non-powered dams by 
establishing an expedited licensing process for qualifying 
facilities that will result in a decision on an application in 
2 years or less. The bill also requires FERC, the U.S. Army 
Corps of Engineers, and the Department of the Interior to 
develop a list of existing non-powered federal dams that have 
the greatest potential for non-federal hydropower development.
    Developing hydropower generation at over 50,000 suitable 
dams across the country has the potential to have 12 gigawatts 
of clean energy to the grid, create good-paying jobs, and bring 
billions of dollars of investment. In fact, in the 8th District 
of Indiana, which I represent, there are six suitable dams that 
can benefit from this expedited permitting process. This 
legislation modernizes our existing infrastructure and I 
believe should be included in any infrastructure package passed 
out of Congress.
    So Mr. Devine, in your testimony you state that enacting 
legislation like this, and you quote, ``in a way to move 
investments in hydropower infrastructure forward without major 
cost to the U.S. government.'' Can you speak to the impact H.R. 
72 and other hydropower legislation but specifically this would 
have on hydropower development across the country as well as 
its role in our country's infrastructure?
    Mr. Devine. Yes. Thank you, Congressman Bucshon.
    I think it's an excellent example of trying to improve the 
investment picture for small hydropower and hydropower in the 
country.
    It's also an example of moving forward hydropower at 
existing dams recognizes that the main aspect of these dams are 
usually run-of-river dams. Run-of-river dams are known to have 
very minor impacts, generally, to the water resources of the 
river. Therefore, a 2-year expedited process in this is not 
incongruent with protecting environmental resources.
    I think it's also an example of an expedited process which 
also continues to protect the environment because these 
environmental analyses will be done and completed in a 
reasonable time frame and fully evaluated from the scientific 
perspective.
    I think it also combines the expedited time frame for the 
licensing process and is a good example of not trying to 
rescind any environmental laws or regulations.
    I think it's a fine example of encouraging new investments 
in hydropower and recognizing that some of these projects have 
minimal environmental effects and could move forward 
expeditiously.
    Mr. Bucshon. Thank you very much.
    I just want to point out this bill was passed unanimously 
out of the House with bipartisan support. We worked with both 
parties to develop language that people were comfortable with 
and, again, I want to reiterate that the environmental review 
process is still there in place.
    We are just getting federal agencies to move the process 
more quickly rather than 10 years or 12 years to a process that 
would be over a 2-year period, which the potential for 
expanding this form of clean energy is tremendous.
    And I look forward to our Senate colleagues taking this up 
and I do think there's a lot of interest over there and I think 
in a bipartisan way. I am hoping to get this type of 
legislation to the president's desk.
    So thank you very much, Mr. Chairman. I yield back.
    Mr. Olson. The gentleman yields back.
    The chair now calls upon the pride of Schenectady, New 
York, right behind Thomas Edison, as we learned this morning--
Mr. Tonko, for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair. I think the pride may be 
the mayor of Schenectady. But that's up for discussion.
    Mayor, again, I want to thank you for a very comprehensive 
report. It is so innovative and it allows us to go into the 
next stage of energy resources, and I thank you, again, for the 
vision that, obviously, will lead many people down a path of 
sound energy policy.
    Schenectady has, I believe, over 5,000 street lights and 
what is considered when a city decides to make a major 
infrastructure investment such as converting to LED 
streetlights?
    Mr. McCarthy. Again, there's approximately 5,000 street 
lights in the city of Schenectady, 500 of which the city owns. 
Forty-five hundred, approximately, are owned by the utility. So 
the 500 that the city owns are fairly easy to deal with.
    Where you get utility-owned streetlights it becomes a more 
complicated process to either buy those or purchase the 
residual value of the fixtures that had been installed and 
that's why we are trying to work with New York Public Service 
Commission to come up with a model that would allow that 
transition to the LED lights. When you're doing that it's not 
to miss the opportunity to put some of the other available 
technology on the light pole, which will, again hopefully help 
the utility, help the city, then help the residents and 
businesses within the community take advantage of some of the 
emerging and wireless and sensor-based technologies.
    Mr. Tonko. So as you convert to LED, what are the potential 
savings for the city when adopting a smart lighting system?
    Mr. McCarthy. The initial savings--our number is just under 
$400,000--about half of our electrical costs.
    Also, when you put the optical sensors on the poles that 
you can then pick up additional savings when you dim the lights 
further when there's less activity on the street.
    When you put either a Wi-Fi or cellular communication 
protocol on the pole it might be able to extend that savings to 
residents or businesses so that your control is on the sensor 
on the street but you would enable homeowners or businesses to 
be able to dim their either porch lights or advertising on 
their buildings or other fixtures that they might have when 
there's no activity--you could dim that.
    When there is activity you'd be able to turn them up. So it 
becomes really an integrated deployment where, hopefully, 
everybody will benefit from it.
    Mr. Tonko. Tremendous. In addition to lighting, Schenectady 
has developed other clean energy and efficiency projects. Among 
them a few years ago the city installed a CHP system--a 
combined heat and power system--at the wastewater treatment 
facility and more recently installed a solar array, I believe, 
at that facility.
    Mr. McCarthy. Yes.
    Mr. Tonko. What are the benefits of these types of 
projects?
    Mr. McCarthy. Our wastewater treatment plant, the co-gen 
facility there, saves us approximately $30,000 a month in 
utility costs, capturing the methane gas and burning it on site 
and then our solar deployment at the time was the largest 
municipal solar array in New York State. It's done on top of an 
enclosed reservoir. The Bevis Hill Reservoir supplies 
hydrostatic pressure for the water system within the city.
    Mr. Tonko. So there's, obviously, long-term benefits there 
to the city with these projects?
    Mr. McCarthy. Correct. It was just really unused land and 
so now we get 711 kilowatts of electricity generated there that 
we use a remote metering package to offset the costs of some of 
our higher utility bills of the municipal--primarily city hall 
and some of our fire stations.
    Mr. Tonko. Right.
    Just make mention here for the record that the city 
established a smart city advisory commission chaired by Mark 
Little, the former chief technology officer and director of GE 
Global Research, which includes businesses and important 
institutions from around the area. So it's really pulling in 
the private sector-public sector partnership.
    Back to those public sector partnerships, are there--
earlier you were quizzed about the 80/20 match with Ranker 
Rush. But are there opportunities for public partnerships at 
the state and federal level that you would encourage?
    Mr. McCarthy. I believe everybody has to look at the 
emerging technologies. Things are changing so fast. I was here 
at a NIST event 3 weeks ago and they talked about that 90 
percent of the data that exists in the world today had been 
created in the last 36 months. I went back and used that 
statistic at an event at our community college. Somebody came 
up to me and corrected me. He said, ``Mr. Mayor, that's wrong. 
Ninety percent of the data that exists in the world today has 
been created in, roughly, the last 24 months.''
    So there is so much information out there that, if properly 
managed, it will allow us to do predictive analytics. It will 
enable us to drive better outcomes, whether it's government 
services, products that are produced in business, and 
educational opportunities within our communities.
    But, again, it's happening so fast that we have to have 
policy standards and an environment that allow those things to 
be fully utilized and taken advantage of in a rapid manner. 
Again, it's really our global competitiveness is a key 
component of that because other countries are moving faster in 
some areas.
    Mr. Tonko. Thank you very much, again, for the vision. And 
I agree, the challenge to us now is to determine how we utilize 
the great compilation of data that we acquire.
    And with that, Mr. Chair, I yield back.
    Mr. Olson. Gentleman's time has expired.
    The chair now calls upon the Motorcycle Riders Foundation 
2017 Legislator of the Year, Mr. Walberg, for 5 minutes.
    Mr. Walberg. Wow.
    [Laughter.]
    Tell you what, always wondering what in the world you do to 
get all of the research done with all of our members here. It's 
impressive, Mr. Chairman. Impressive.
    Thanks to the panel for being here. Mr. Ross, I certainly 
appreciate the work the Brotherhood does in training people to 
do jobs whether it's at my Fermi plant--the DTE Fermi plant--or 
down Lake Erie a bit at the big coal-fired plant or in all of 
the consumers' gas-powered plants, et cetera to get the 
electricity to the lines and ITC and others. We appreciate the 
work you do.
    I want to ask you to give us some examples, if you could, 
or ideas how we can expand access to apprenticeships. But I 
would preface it by saying I was greatly excited with what our 
governor was proposing in Michigan last week called the 
Marshall Plan for talent and, specifically, as he talked about 
pushing means toward short-term certification programs, 
education programs, whether it's the community college level or 
apprenticeships, et cetera.
    The PROSPER Act that we passed out of the House Education 
and Workforce Committee just a couple months ago that 
reauthorized the Higher Education Act has a one-loan one-grant 
one-work study program that can be done for that very purpose--
those Pell grants, et cetera, that can go towards short-term 
training opportunities as well in the professional trades, as 
we are calling now in Michigan. I know they're skilled but 
they're professional as well and we want to give that idea out 
to our students that could look to fill spots that can be an 
asset to what we have.
    The SKILLS Act we passed several years ago and was signed 
by President Obama, again, pushed education for real-world jobs 
back to the states and the local communities and private 
entities like yourself. So we want to build on that.
    What would be the best way to do this, to expand recruiting 
and apprenticeships for the next generation of electric workers 
as well as how can the U.S. encourage more individuals pursue 
these programs?
    Mr. Ross. I think we should start by introducing the trades 
earlier on in school. When I came through school you were 
introduced in shop class or you had to go to electrical class 
just to introduce individuals to those programs, and there's 
not much vocational training, at least I haven't seen much, in 
the high schools anymore. They've gone away from that and 
certainly guidance counselors have gotten away from trying to 
push individuals to our industry--the trades.
    Unfortunately, not everyone is cut out for college or even 
community colleges, in some cases. We take individuals with 
basically a high school education, at a minimum, and for an 
electrician basically high school algebra is a bare minimum for 
us and we train them to be electricians.
    We certainly need to do a better job of promoting that 
program to individuals out there and, quite frankly, we need to 
do a lot better than what we have been.
    And I think reintroducing them in the high schools would 
certainly be a starter--even earlier in junior high--to get 
them exposed to what the trades are--have them hands-on. We 
also have pre-apprenticeship programs out there that our 
electrical training alliance has developed to put high school 
graduates into those programs. It gets them exposed to what's 
expected of them when they become selected as an apprentice. So 
some of those programs we are trying to promote.
    Mr. Walberg. That's great. The push to encourage people 
toward their sweet spots--it would be a waste of time for some 
to go the university or 4-year college route.
    We would waste the skills and the talents that they have, 
and if we think about professional skills these are jobs like 
you're talking about that are careers--that are good paying and 
can continue to expand. I wish you well on that. We need the 
juice.
    [Laughter.]
    We need the electricity to our homes.
    Mr. Slocum, earlier this Congress with the help of this 
committee we passed H.R. 1109. This was legislation that was 
introduced to reduce red tape on both industry and FERC to free 
up resources and lower utility bills. This made a simple fix to 
Section 203 of the Federal Power Act and harmonized the 
language in that particular section.
    We know there needs to be serious permitting reform. Simple 
or technical fixes such as 1109 that Congress can pass to 
remove red tape and reduce burdensome paperwork--other low-
hanging fruit ideas as well. What would you have to move us 
forward to get past this red tape and bureaucracy?
    Mr. Slocum. Thank you, Congressman, and we appreciation the 
work that was done there to make things more efficient with 
respect to that 203 process.
    And I think, as mentioned in my testimony, I talk about 
some changes that could be made to the NEPA process that seems 
to have a level of agreement and seems to make some 
straightforward sense as far as making sure that we can get 
through the permitting process in a timely manner but we can do 
that efficiently. And so that would be one of the biggest 
things that I would see that would be a low-hanging fruit type 
opportunity.
    Mr. Walberg. My time has expired. I yield back.
    Mr. Harper [presiding]. Gentleman yields back.
    The chair will now recognize the gentleman from West 
Virginia, Mr. McKinley, for 5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman.
    This now is the thirteenth we've had out of those--2 hours 
ago we heard this is the forty-seventh hearing we've had on 
infrastructure and this is the thirteenth dealing with grid 
resiliency regarding the infrastructure. We've heard a lot of 
good solutions over those 47 and, clearly, we have a growing 
problem with the adequacy of our energy infrastructure and the 
grid being at risk.
    But, unfortunately, I can tell you, I am not sure the 
messages are being heard because just a few years ago we had 
with the Polar Vortex we came within just minutes of having a 
blackout through the PJM. PJM was reporting that. And now ISO 
is just--New England has just come out with a very well-
documented report that says the possibility of the power plants 
in the New England area won't have or be able to get the fuel 
they need to operate, and their quote was, ``This is the 
foremost challenge to a reliable power grid in New England.''
    And then further in the report it says New England has a 
better than 80 percent chance of a blackout in the next bad 
weather storm. But in the meantime, New England is becoming 
increasingly reliant on Russian LNG to be able to satisfy their 
energy demands instead of using American energy.
    So if we are truly committed as a country for energy 
dominance, what are we doing about it? Are we listening to the 
hearings that have been taking place?
    And then one that particularly disturbs me is that New 
England is apparently importing subsidized Canadian electricity 
at the expense of American jobs--80--or 73 gigawatts of power 
coming in from Canada. I've got to think that the impact of 
that--instead of having the jobs that we could have as a result 
of that, nearly a hundred coal-fired or nuclear or wind or 
solar--the equivalent of power plants, we could have those in 
America instead of importing from overseas or from Canada.
    I don't understand why the governments in the New England 
area are withholding permits to be able to build pipelines so 
that we could use American resources to be able to do that. As 
a result, we seem to be prematurely closing a lot of our coal 
and nuclear power plants unnecessarily so. So I think we have 
to be careful and I hope that these hearings will underscore 
that because what we've talked about is a couple weeks ago we 
passed a 45Q, which was a tax credit.
    We need to give more people the chance to use that 45Q to 
find out if we don't get carbon capture with this tax credit 
that we were able to pass. And then working with Congressman 
Tonko, we keep pushing the efficiency idea with turbines. We 
have capabilities of doing this but it doesn't look like 
there's a commitment to do it.
    The fuel security is, I believe, a national security and 
that's what these two reports are saying. So if government is--
both sides of the aisle--really serious about all-of-the-above 
energy resources instead of just empty rhetoric, isn't it about 
time that we paint or get off the ladder? Think about that.
    So Mr. Ross, I know you have got a connection back to 
Parkersburg. What's your response to the fact that we are 
importing electricity from Canada rather than creating American 
jobs and using American ingenuity and American efficiency and 
American clean environment?
    Mr. Ross. I hate to say too much to our brothers in the 
north because we represent IBEW members out there. So the 
powerline I talked about earlier on would be done with IBEW. So 
I understand where you're coming from. There's plenty of 
resources here in the United States we can use if we could just 
get the permitting process sped up and create the national grid 
that we need.
    Mr. McKinley. Can any of you explain why the pipelines are 
being held up so that we can use American resources to create 
American jobs?
    Mr. Slocum. I will just say I can't speak to pipelines but 
certainly with the electric transmission infrastructure I think 
it's a lack of that interregional planning where you can get 
buy-in to a project and the reasons for the project and then 
from there you can move forward with the permitting and get 
something that's actually an interregional project built.
    Until you have the impetus behind the project, it becomes 
very difficult to cross state lines, especially multiple state 
lines, where there's going to be winners and losers between 
those two areas unless you have a project that has some sort of 
ultimate approval that's going to proceed and move forward.
    Mr. McKinley. I know my time is over. But I find it just 
offensive that, according to this Bloomberg article that we are 
importing natural gas from Russia instead of using our own 
supplies, especially with all the gas that we have discovered 
in America that makes us such a large producer. I hope that we 
can reverse that.
    I yield back.
    Mr. Harper. Gentleman yields back.
    The chair will now recognize himself for 5 minutes.
    And Dr. Hellyer, I would like to ask you a few questions 
and certainly you know very well how the energy landscape of 
the United States is constantly changing. And according to the 
U.S. Department of Labor, the average age of the U.S. energy 
workforce is over 50 and the energy sector will need more than 
100,000 new skilled workers by 2024 just to replace those 
retiring workers, and by some estimates more than twice as many 
workers are expected to retire as are currently involved in the 
apprenticeship or certificate programs, and degree completion 
and engineering has remained relatively stagnant since the 
1980s.
    So from your perspective, what incentives are needed to 
expand community college access and apprenticeship programs?
    Ms. Hellyer. One of the conversations we had mentioned 
earlier was around Pell, and Pell is an important component for 
all students of higher education, specifically community 
college students. And there are 2.7 million community college 
students using Pell. From our standpoint and in my community, 
75 percent of the students are first generation to college. 
About 75 percent are also going part time, and if you dig into 
our ISDs they are about 70 percent economically disadvantaged.
    And so Pell does play a critical role. I think it's what 
Mr. Ross said earlier also is that awareness around those jobs, 
which is something that we have really done well in our region 
trying to build that awareness much younger and then putting 
that all together and allowing the resources to be put in 
place, the industry partnerships to build the apprenticeships.
    We have registered approved apprenticeships at San Jacinto 
College and we have unregistered programs and, again, designing 
them based on what the industry partner needs but realizing 
that it's a combination that's going to be needed.
    Mr. Harper. So how do you communicate to these students 
that these are the types of jobs in the energy and 
manufacturing sector that they can have a good life, support 
their family on? How is that communication made to the 
students?
    Ms. Hellyer. In our region what we are doing is first we 
are engaging in sixth graders, bringing them onto campus and 
seeing hands-on around what happens in our petrochemical 
plants, what's happening in the maritime industry so having 
that hands-on, reengaging them again in eighth grade.
    In eighth grade in Texas, students decide an endorsement--
an area of study--and so we are engaged with them around that 
process. Again, how does this tie back to the jobs in our 
community, and then we also have a speakers bureau, which is 
led by industry with community colleges going in to the eighth 
grade and then the high schools.
    Those conversations are directed at parents, teachers, 
counselors, and students. You need that broad awareness and, to 
be honest, just as Mr. Ross said, there hadn't been that kind 
of awareness in our communities for a lot of years and so we 
are building that pipeline.
    But when you can talk that a process operator will make 
$100,000 or a welder $70,000 with the proper credentials, that 
starts speaking. And those students need to hear it from people 
that are younger than me. They need to hear it from people who 
went to their high school and that are reengaging and that's 
what industry has done.
    They bring in those people working in their plants back 
into the high schools where they can get a role model and then 
get their questions answered. And then it's us putting in place 
the support systems at the college--having industry partners at 
the table, being real clear what the expectations are, defining 
how's the safety culture built in--what's the work ethic and 
reinforcing that in all your programs. Our industry partners at 
the table with us are the critical factors.
    Mr. Harper. That's great. What we observed is students just 
by nature, when they're in high school, the earliest time that 
they are able to opt out of math and science classes they try 
to do that and get it done and then you lose those skills.
    So are you seeing any connection with that to where you're 
seeing more and more students maintain the STEM curriculum in 
high school so they don't opt out of those possible job 
opportunities?
    Ms. Hellyer. So, again, it's working with our high schools 
and with the industries but also with the universities because 
some of those jobs do require university and so how do you have 
that pipeline. And then for us in higher education we can 
redesign math a little bit. We are not directing all students 
to college algebra.
    If you're moving in to a business degree you're doing more 
statistics. If you are going into process technology it's more 
of a technical math and showing how that reinforces with what 
you're going to do--welding, more geometry. And so we try to 
redefine some of that.
    We take the same approach with English. Our operators need 
English. They need the math skills. They need more of a 
technical English and so how do you redesign that and being 
very prescriptive again, take math early, take the sciences 
early because it does reinforce the rest of the courses in your 
degree program.
    Mr. Harper. Thank you, all of you, for being here. It's 
provided a lot of important insight to the committee. And 
seeing that there are no further members wishing to ask 
questions I would like to thank all of our witnesses again for 
taking the time to be here today.
    Before we conclude, I would like to ask unanimous consent 
to submit the following letters for the record: One, the 
Utilities Technology Council letter, and the second is the 
American Public Gas Association.
    [The information apears at the conclusion of the hearing.]
    Mr. Harper. Without objection, those are so entered and I 
will ask if Mr. Rush has any similar documents.
    Mr. Rush. Mr. Chairman, I would ask the unanimous consent 
to enter into the record different letters, one from the Center 
for American Progress, these are statements, one, and the 
American--the Center for American Progress has a statement 
debunking the false claims of the environmental review 
component. Additionally, there's the Center for American 
Progress statement on Trump's infrastructure scam that will gut 
the environmental protection to benefit corporate polluters. 
And we have a series of others--BlueGreen Alliance entitled, 
``The Right Way to Repair America's Infrastructure''--the Earth 
Justice statement, which is entitled, ``Congress Should Support 
an Infrastructure Plan that Builds Infrastructure, Not Gut 
Health and Environmental Protection.'' And lastly, a New York 
Times article that's entitled, ``Trump's Infrastructure Plan 
Puts the Burden on State Environment Money.''
    [The information appears at the conclusion of the hearing.]
    Mr. Harper. Without objection.
    Pursuant to committee rules, I remind members that they 
have 10 business days to submit additional questions for the 
record and I ask that witnesses submit their response within 10 
business days upon receipt of the questions.
    Without objection, the subcommittee is adjourned.
    [Whereupon, at 12:24 p.m., the committee was adjourned.]
    [Material submitted for inclusion in the record follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
